APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, Boardman v. Inslee,
No. 19-35113 (Oct. 22, 2020) ....................... App-1
Appendix B
Order, United States District Court for
the Western District of Washington,
Boardman v. Inslee No. C17-5255 (Jan.
10, 2019)..................................................... App-90
Appendix C
Relevant Constitutional Provision and
Legislative Material ................................ App-127
U.S. Const., amend. I ....................... App-127
Seniors and Vulnerable Individuals’
Safety
and
Financial
Crimes
Prevention Act, 2017 Wash. Legis.
Serv., ch. 4, I.M. No. 1501 ................ App-127

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 19-35113
________________
BRADLEY BOARDMAN, a Washington Individual
Provider; DEBORAH THURBER, a Washington Family
Childcare Provider; SHANNON BENN, a Washington
Family Childcare Provider; FREEDOM FOUNDATION, a
Washington nonprofit organization,
v.

Plaintiffs-Appellants,

JAY ROBERT INSLEE, Governor of the State of
Washington; ROBERT HINES *, Director of the
Washington Department of Social and Health
Services (DSHS); ROSS HUNTER, Secretary of the
Washington Department of Children, Youth, and
Families (DCYF) **,
Defendants-Appellees,
Robert Hines is substituted for his predecessor, Patricia
Lashway, as the Director of the Washington Department of Social
and Health Services (“DSHS”). Fed. R. App. P. 43(c)(2).
*

On July 6, 2017, the Washington Department of Early
Learning (“DEL”) ceased to exist as an independent state agency
and its functions were transferred to the newly formed
Washington Department of Children, Youth, and Families
(“DCYF”). See Act of July 6, 2017, 2017 Wash. Laws ch. 6, § 802(1)
(“The [DEL] is hereby abolished and its powers, duties, and
functions are hereby transferred to the [DCYF].”). Thus, the
DCYF has been substituted for the DEL in this appeal.
**

App-2
CAMPAIGN TO PREVENT FRAUD AND PROTECT SENIORS,
Intervenor-DefendantAppellee.
________________
Argued and Submitted: Feb. 4, 2020
Filed: Oct. 22, 2020
________________
Before: Milan D. Smith, Jr., N. Randy Smith, and
Daniel A. Bress, Circuit Judges.
________________
OPINION
________________
N.R. SMITH, Circuit Judge:
Although the decision whether to disclose
government-controlled information is generally a
“task which the Constitution has left to the political
processes,” Houchins v. KQED, Inc., 438 U.S. 1, 12
(1978) (plurality opinion), the First Amendment
forbids a state from discriminating invidiously among
viewpoints in the provision of information within its
control. However, a state does not engage in viewpoint
discrimination by simply disclosing the personal
information of public or quasi-public employees to the
employees’
exclusive
collective
bargaining
representative, while denying equal access to the
public. See Perry Educ. Ass’n v. Perry Local Educators’
Ass’n, 460 U.S. 37, 49 (1983).
Initiative 1501, a ballot initiative passed by
Washington voters, prohibits public access to certain
government-controlled information, including the
personal information of in-home care providers. Under

App-3
the initiative, in-home care providers’ personal
information must still be disclosed to their exclusive
bargaining representatives. Appellants, who have
been denied access to this information, challenge
Initiative 1501 under the First Amendment and the
Equal Protection Clause of the Fourteenth
Amendment. The district court rejected Appellants’
claims on summary judgment. So do we.
I
In this opinion, we are concerned only with the
constitutionality of Initiative 1501. However, in order
to address that issue, we must begin our analysis a few
years prior to the initiative’s passage.
A
Appellants,
Bradley
Boardman,
Deborah
Thurber, and Shannon Benn, provide home-based care
services in the State of Washington. Boardman is an
“individual provider” who provides Medicaid-funded
healthcare services for a disabled family member. See
Wash. Rev. Code § 74.39A.240(3) (“‘Individual
provider’ means a person . . . who, under an individual
provider contract with the department [of social and
health services] or as an employee of a consumer
directed employer, provides personal care or respite
care services to persons who are functionally disabled
or otherwise eligible under [various Medicaid- or
state-funded programs].”). Thurber and Benn are
“family child care providers” who provide statesubsidized childcare services for low-income families.
See id. § 41.56.030(7) (“‘Family child care provider’
means a person who: (a) Provides regularly scheduled
care for a child or children in the home of the provider
or in the home of the child or children for periods of

App-4
less than twenty-four hours or, if necessary due to the
nature of the parent’s work, for periods equal to or
greater than twenty-four hours; (b) receives child care
subsidies; and (c) . . . is either licensed by the state or
is exempt from licensing.”).
As in-home care providers, Appellants are
required by Washington law to participate in
statewide collective bargaining. Id. §§ 41.56.028,
74.39A.270. Individual providers and family child care
providers compose two separate collective bargaining
units, each of which is represented by an exclusive
bargaining representative elected by a majority of
providers within the unit. Id. §§ 41.56.028(2),
74.39A.270(2)(a), (7). Currently, Service Employees
International Union Healthcare 775NW (“SEIU 775”)
represents individual providers, and Service
Employees International Union Local 925 (“SEIU
925”) represents family child care providers
(collectively, the “Unions”). As the exclusive
bargaining representatives of in-home care providers,
the Unions must represent all the providers within
each of their collective bargaining units without
regard to union membership. Id. § 41.56.080.
Although they are members of their collective
bargaining units, Boardman, Thurber, and Benn are
not members of the Unions. They do not pay agency or
“fair share” fees—fees paid to a union by nonmembers
to support “activities that are ‘germane to the union’s
duties as collective-bargaining representative,’” see
Janus v. Am. Fed’n of State, Cty., and Mun. Emps.,
Council 31, 138 S. Ct. 2448, 2460 (2018) (alteration
adopted) (quoting Abood v. Detroit Bd. of Educ., 431
U.S. 209, 235 (1977), overruled by Janus, 138 S. Ct. at

App-5
2486), nor do they otherwise support the Unions’
collective bargaining efforts on their behalf. In fact,
Thurber and Benn serve on the board of directors of
Pacific Northwest Family Child Care Association
(“PNFCCA”), a rival union of SEIU 925. With the help
of Appellant Freedom Foundation (a § 501(c)(3) nonprofit organization), Thurber and Benn have
campaigned for several years to replace SEIU 925
with PNFCCA as the exclusive bargaining
representative for family child care providers. To do
so, PNFCCA must first obtain 30% support among
family child care providers to force an election, a
milestone they have yet to achieve. See Wash. Rev.
Code § 41.56.070. The Freedom Foundation has also
assisted Boardman in his efforts to inform other
individual providers of their right to opt out of paying
agency fees to SEIU 775. 1
To promote their various causes, Appellants have
had to obtain the contact information of in-home care
providers. This has not been a simple task. More than
40,000 providers work in homes dispersed throughout
Washington. They do not share workplaces,
supervisors, or clients, and they have a notably high
turnover rate. Consequently, to collect in-home care
providers’ contact information, Appellants have relied
largely on Washington’s Public Records Act (“PRA”),
which requires state agencies to “make available for
public inspection and copying all public records,”
1 In Harris v. Quinn, 573 U.S. 616 (2014), the Supreme Court
held that, under the First Amendment, quasi-public employees
(like in-home care providers in the State of Washington) could
not be compelled to pay agency fees to a union representative who
they “do not want to join or support.” Id. at 656.

App-6
unless a specific exemption applies. Id. § 42.56.070(1);
see also Doe ex rel. Roe v. Wash. State Patrol, 374 P.3d
63, 67 (Wash. 2016) (“Despite the PRA’s presumption
of openness and transparency, the legislature has
made certain public records exempt from
production.”). Through PRA requests, Appellants have
obtained lists of in-home care providers’ personal
information that had been maintained in the custody
of the Department of Social and Health Services
(“DSHS”) and the Department of Early Learning
(“DEL”) (now the Department of Children, Youth, and
Families (“DCYF”))—the state agencies that
administer home-care programs. See Wash. Rev. Code
§ 74.39A.240; Serv. Emps. Int’l Union Local 925 v.
Dep’t of Early Learning, 450 P.3d 1181, 1182 (Wash.
2019). With this information, Appellants were able to
identify in-home care providers and contact them
through the mail and by door-to-door canvassing,
which proved to be a relatively efficient way of
spreading their messages and voicing their opposition
to the Unions.
Naturally, the Unions opposed Appellants’ efforts
to replace SEIU 925 with a rival union and to
otherwise diminish the Unions’ support among inhome care providers. In 2014, the Unions began
challenging Appellants’ PRA requests in state court,
seeking to enjoin disclosures of DSHS’s and DEL’s
lists of in-home care providers’ information. For a
time, Appellants were successful in obtaining in-home
care providers’ information, despite the litigation
spawned by their PRA requests. But due to in-home
care providers’ high turnover, these lists soon became
outdated. Therefore, Appellants continued to request
updated lists from DSHS and DEL to facilitate in

App-7
spreading their messages among a wide audience of
in-home care providers.
B
In November 2016, Washington voters passed
Initiative 1501, a ballot initiative designed to “protect
the safety and security of seniors and vulnerable
individuals” (e.g., the elderly and individuals with
developmental disabilities, see Wash. Rev. Code
§ 9.35.005(7)) from various financial crimes. Seniors
and Vulnerable Individuals’ Safety and Financial
Crimes Prevention Act, 2017 Wash. Legis. Serv., ch. 4,
I.M. No. 1501, § 2 (West). Initiative 1501 was
comprised of three parts. Part I amended the
definition of first-degree identity theft under
Washington’s criminal code to include “knowingly
target[ing] a senior or vulnerable individual in”
committing an identity crime. Id. § 6 (codified at
Wash. Rev. Code § 9.35.020(2)). Part II enacted a
treble-damages provision applicable in any civil cause
of action in which the plaintiff “was victim to
consumer fraud that targeted him or her as a senior or
vulnerable individual.” Id. (codified at Wash. Rev.
Code § 9.35.060).
Part III of Initiative 1501—which forms the basis
of this dispute—exempted a new category of public
records from disclosure under the PRA. It provided:
To protect vulnerable individuals and their
children from identity crimes and other forms
of victimization, neither the state nor any of
its agencies shall release sensitive personal
information of vulnerable individuals or
sensitive personal information of in-home
caregivers for vulnerable populations, as

App-8
those terms are defined in [Revised Code of
Washington section 42.56.640].
Id. § 10 (codified at Wash. Rev. Code. § 43.17.410)
(emphasis added). Additionally, Part III directly
amended the PRA to exempt the sensitive personal
information of vulnerable individuals and their inhome care providers from “inspection and copying
under [the PRA].” Id. § 8 (codified at Wash. Rev. Code
§ 42.56.640(1)). “Sensitive personal information” was
defined to cover an individual’s name, addresses,
contact information, and “other personally identifying
information.” Id. (codified at Wash. Rev. Code
§ 42.56.640(2)(b)).
With the passage of Initiative 1501, the sensitive
personal information of vulnerable individuals and inhome care providers joined hundreds of other
categories of public records that have been exempted
from disclosure under the PRA. “The general purpose
of the exemptions to the [PRA’s] broad mandate of
disclosure is to exempt from public inspection those
categories of public records most capable of causing
substantial damage to the privacy rights of citizens or
damage to vital functions of government.” Limstrom v.
Ladenburg, 963 P.2d 869, 875 (Wash. 1998). “There
are three sources of PRA exemptions: (1) enumerated
exemptions contained in the PRA itself, (2) any ‘other
statute’ that exempts or prohibits disclosure . . . , and
(3) the Washington Constitution.” SEIU 775 v. State
Dep’t of Soc. & Health Servs., 396 P.3d 369, 372 (Wash.
Ct. App. 2017) (quoting Wash. Rev. Code
§ 42.56.070(1)). These exemptions cover a wide range
of information, from certain law enforcement and
crime data, public employees’ personal information,

App-9
and proprietary records, see, e.g., Wash Rev. Code
§§ 42.56.240, 42.56.250, 42.56.270, to library records,
id. § 42.56.310, commercial fishing catch and shellfish
harvest data, id. § 42.56.430(1), (8), and maps of
archaeological sites, id. § 42.56.300(1).
Initiative 1501’s prohibition on public access to
the personal information of vulnerable individuals
and their in-home care providers was not without
exceptions. The initiative authorized disclosure of
information under several narrow circumstances,
including when “disclosure is required by federal law”
or “by a contract between the state and a third party,”
or when “[t]he information is being released as part of
a judicial or quasi-judicial proceeding.” 2 Seniors and
2

Part III of Initiative 1501 provided:
Nothing . . . shall prevent the release of
information in the following circumstances:

public

(a) the information is released to a
governmental body, including the state’s area
agencies on aging, and the recipient agrees to
protect the confidentiality of the information;
(b) the information concerns individuals who
have been accused of or disciplined for abuse,
neglect, exploitation, abandonment, or other acts
involving the victimization of individuals or other
professional misconduct;
(c) the information is being released as part of
a judicial or quasi-judicial proceeding and subject
to a court’s order protecting the confidentiality of
the information and allowing it to be used solely
in that proceeding;
(d) the information is being provided to a
representative certified or recognized under RCW
41.56.080, or as necessary for the provision of
fringe benefits to public employees, and the

App-10
Vulnerable Individuals’ Safety and Financial Crimes
Prevention Act, 2017 Wash. Legis. Serv., ch. 4, I.M.
No. 1501, § 11(c), (e), (f) (West) (codified at Wash. Rev.
Code § 42.56.645(1)(c), (e), (f)). Information could also
be lawfully disclosed if it were “being provided to a
representative certified or recognized under [Wash.
Rev. Code section] 41.56.080,” id. § 11(d) (codified at
Wash. Rev. Code § 42.56.645(1)(d)), which is an
exclusive bargaining representative of a collective
bargaining unit, Wash. Rev. Code § 41.56.080 (“The
bargaining representative which has been determined
to represent a majority of the employees in a
recipient agrees to protect the confidentiality of
the information;
(e)

the disclosure is required by federal law;

(f) the disclosure is required by a contract
between the state and a third party, and the
recipient agrees to protect the confidentiality of
the information;
(g) the information is released to a person or
entity under contract with the state to manage,
administer, or provide services to vulnerable
residents, or under contract with the state to
engage in research or analysis about state
services for vulnerable residents, and the
recipient agrees to protect the confidentiality of
the information; or
(h) information
about
specific
public
employee(s) is released to a bona fide news
organization that requests such information to
conduct an investigation into, or report upon, the
actions of such specific public employee(s).
Seniors and Vulnerable Individuals’ Safety and Financial Crimes
Prevention Act, 2017 Wash. Legis. Serv., ch. 4, I.M. No. 1501, § 11
(codified at Wash. Rev. Code § 42.56.645(1)).

App-11
bargaining unit shall be certified by the commission
as the exclusive bargaining representative of, and
shall be required to represent, all the public employees
within the unit without regard to membership in said
bargaining representative . . . .”). 3
Boardman,
Thurber,
and
the
Freedom
Foundation were active in their opposition to
Initiative 1501. Together, they prepared the
“Argument Against” statement for the initiative in the
“Voter’s Guide” to the 2016 election. In their
statement, they alleged that the Unions drafted and
supported Initiative 1501 “to prevent in-home
caregivers and childcare providers from learning they
no longer can be forced to pay dues to the union” and
to “protect[] union bosses’ wallets.” “If Initiative 1501
passes,” they claimed, “caregivers will not even be able
to contact each other to discuss issues of common
concern.” The “Argument For” statement was
prepared by two in-home care providers, an elder
advocate, the King County Sheriff, and a
representative of the Puget Sound Advocates for
Retirement Action. They argued that Initiative 1501
would help prevent “fraudulent telemarketers” and
“identity thieves” from “targeting seniors and the
vulnerable.”
The chief proponent of Initiative 1501 was the
“Campaign to Prevent Fraud and Protect Seniors”
(“Campaign”), a campaign committee registered with
3 The Unions have had the ability to obtain access to Provider
Information under this exception, because they are both
currently “representative[s] certified or recognized under [Wash.
Rev. Code section] 41.56.080.” See Wash. Rev. Code
§ 42.56.645(1)(d).

App-12
the State of Washington to “spearhead[] the
campaign” in favor of the initiative. The Campaign
was composed of “unions, advocates for seniors, public
safety officials, and community groups.” Its literature
was unequivocal in its support for Initiative 1501:
“Groups like the Freedom Foundation are threatening
unions. . . . Initiative 1501 will keep groups like the
Freedom Foundation from getting our personal
information. Vote yes on I-1501 to keep our unions
strong and protect what we’ve fought for.” The
Campaign received substantial contributions from the
Unions. It was also chaired by SEIU 775’s secretarytreasurer. SEIU 775 echoed the Campaign’s support
for Initiative 1501 in an email to its members: “There’s
one more way you can fight to stop the Freedom
Foundation: When you get your ballot in the mail, vote
YES on I-1501, which protects the private information
of caregivers and our state’s most vulnerable.”
In the final tally, nearly 71% of Washington voters
supported the passage of Initiative 1501. The
initiative took effect on December 8, 2016.
C
After Initiative 1501 took effect, Boardman,
Thurber, and Benn made PRA requests to DSHS and
DEL for updated lists of in-home care providers’
personal
information
(hereafter,
“Provider
Information”). All of their requests were denied.
Appellants then filed suit in federal district court
seeking declaratory and injunctive relief under 42
U.S.C. § 1983. 4 Among other claims, Appellants
4 When this suit was filed, Appellants named Jay Inslee,
Governor of the State of Washington, Patricia Lashway, then-

App-13
alleged that Part III of Initiative 1501 violated the
First Amendment by discriminating among
viewpoints and impairing their freedom of association.
Additionally, Appellants alleged that the initiative
transgressed the Equal Protection Clause of the
Fourteenth Amendment, because it burdened their
fundamental rights and was motivated by animus.
The Campaign intervened in the action to assist in
defending the constitutionality of Initiative 1501. On
cross-motions for summary judgment, the district
court granted judgment in favor of the State and the
Campaign on all of Appellants’ claims. 5 Appellants
appeal the district court’s judgment and renewed the
foregoing claims.
II
We have jurisdiction to review the district court’s
decision on cross-motions for summary judgment
under 28 U.S.C. § 1291, and we review this decision de
novo, Guatay Christian Fellowship v. County of San
Diego, 670 F.3d 957, 970 (9th Cir. 2011). “[W]e view
the evidence in the light most favorable to the
nonmoving party, determine whether there are any
genuine issues of material fact, and decide whether
the district court correctly applied the relevant
substantive law.” Animal Legal Def. Fund v. U.S. Food
and Drug Admin., 836 F.3d 987, 989 (9th Cir. 2016)
(per curiam). Summary judgment is appropriate
Director of DSHS, and Ross Hunter, then-Director of DEL, as
defendants (collectively, the “State”).
5 Both the State and the Campaign are Appellees in this case.
For ease of reference, we will refer only to the State when
discussing the arguments raised by both parties in their joint
answering brief.

App-14
where “there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a).
III
Appellants primarily contend that, under the
statutory provisions codifying Initiative 1501, they are
denied access to Provider Information based on the
views they espouse on the subject of collective
bargaining. Before we address the merits of this claim,
we must consider the State’s threshold argument
“that laws restricting public access to records do not
implicate the First Amendment.” On this score, the
State argues that the disclosure of governmentcontrolled information is “wholly within the legislative
power,” such that the decision to restrict access to
Provider Information is beyond First Amendment
scrutiny. The State urges us to reject Appellants’ claim
on this basis alone.
A
Houchins first announced the well-settled
principle that the First Amendment does not
guarantee a general “right of access to government
information or sources of information within the
government’s control.” 438 U.S. at 15; id. at 16
(Stewart, J., concurring in the judgment) (“The First
and Fourteenth Amendments do not guarantee the
public a right of access to information generated or
controlled by government . . . .”); see also McBurney v.
Young, 569 U.S. 221, 232 (2013) (“[The Supreme]
Court has repeatedly made clear that there is no
constitutional right to obtain all the information
provided by [a state’s freedom-of-information]

App-15
laws.”). 6 As Chief Justice Burger’s opinion in
Houchins explains, the disclosure of government-

Of course, we have recognized a qualified First Amendment
right of access to certain government-controlled judicial records.
We recently explained in First Amendment Coalition of Arizona,
Inc. v. Ryan, 938 F.3d 1069 (9th Cir. 2019):
6

As the Supreme Court originally conceptualized it, the
First Amendment right of access to governmental
proceedings refers to the right of the public to attend
and observe those proceedings. In the initial cases
recognizing the right, the Court held that the public
has the right to attend criminal trials, the juryselection process, and preliminary hearings. In
situations in which other interests justify the closure
of a proceeding, the Court held that the public has a
right to access a transcript of the proceeding within a
reasonable time. Our court has since extended the
right of access to various documents filed in criminal
proceedings. For example, we have held that the public
has the right to access plea agreements, documents
filed in pretrial proceedings, and documents filed in
post-conviction proceedings.
Id. at 1078 (citations omitted); see also Courthouse News Serv. v.
Planet, 947 F.3d 581, 585 (9th Cir. 2020) (deciding that “the press
has a qualified [First Amendment] right of timely access to newly
filed civil nonconfidential complaints”). “To determine whether a
First Amendment right of access attaches to a type of judicial
proceeding or record,” we have applied the two-part test from
Press-Enterprise Co. v. Superior Court, 478 U.S. 1 (1986) (PressEnterprise II), in which we consider: “(1) whether that proceeding
or record ‘has historically been open to the press and general
public’ and (2) ‘whether public access plays a significant positive
role in the functioning of the particular governmental process in
question.’” Courthouse News Serv., 947 F.3d at 590 (alterations
adopted) (quoting Press-Enterprise II, 478 U.S. at 8). In the
district court, Appellants asserted a right of access to Provider
Information under Press Enterprise II’s two-part test. The district

App-16
controlled information is a “task which the
Constitution has left to the political processes,” such
that “a legislative body might appropriately resolve
one way or the other” whether to provide public access
to information within its control. 438 U.S. at 12;
accord Ctr. for Nat’l Sec. Studies v. U.S. Dep’t of
Justice, 331 F.3d 918, 934 (D.C. Cir. 2003)
(“[D]isclosure of government information generally is
left to the ‘political forces’ that govern a democratic
republic.” (quoting Houchins, 438 U.S. at 15)); Capital
Cities Media, Inc. v. Chester, 797 F.2d 1164, 1167 (3d
Cir. 1986) (en banc) (“The founding fathers intended
affirmative rights of access to government-held
information, other than those expressly conferred by
the Constitution, to depend upon political decisions
made
by
the
people
and
their
elected
representatives.”).
Appellants acknowledge (as they must) that they
have no First Amendment right of access to Provider
Information and that Washington lawmakers have
the political prerogative to “decide not to give out [this]
information at all without violating the First
Amendment.” See L.A. Police Dep’t v. United
Reporting Publ’g Corp. (United Reporting), 528 U.S.
32, 40 (1999). However, Appellants argue that the
First Amendment constrains the government’s
discretion to selectively disclose governmentcontrolled information, namely, by forbidding the
government from discriminating among viewpoints in
the provision of information. Because the thrust of
their claim is viewpoint discrimination, Appellants
court rejected that argument, and Appellants do not renew it on
appeal.

App-17
argue that they have presented us with a cognizable
First Amendment claim.
After review of the relevant precedent, we
disagree with the State. Houchins does not control
here. Certainly, Appellants are without a general
right of access to Provider Information under the First
Amendment—this much they concede. But it is a
separate question—and one that is not addressed in
Houchins—whether the government may transgress
the First Amendment by imposing viewpoint-based
conditions on access to government-controlled
information or by otherwise discriminating among
viewpoints in the provision of information within its
control. This is the gravamen of Appellants’ claim, and
Houchins does not resolve it.
The separate writings in United Reporting tease
out this distinction. In United Reporting, the Supreme
Court reviewed a California statute that imposed
multiple conditions on public access to arrestee
address information, including that the requester
declare that the information would not be used “to sell
a product or service.” Id. at 34-35. The plaintiff (a
company
that
provided
arrestees’
personal
information to its customers) brought a facial
challenge to the statute under the First and
Fourteenth Amendments. Id. at 34. The Supreme
Court did not address whether the conditions on
access to arrestee address information were
constitutionally permissible, but held instead that the
statute was not susceptible to a facial challenge. Id. at
40-41. The Court explained that “California could
decide not to give out arrestee information at all
without violating the First Amendment.” Id. at 40

App-18
(citing Houchins, 438 U.S. at 14). Accordingly, “for
purposes of facial invalidation,” the California statute
was “simply a law regulating access to information in
the hands of the police department.” Id.
Nonetheless, eight Justices in United Reporting
joined three separate writings, all of which
acknowledged the critical point that “restrictions on
the disclosure of government-held information” may,
under certain circumstances, “transgress the First
Amendment.” See Sorrell v. IMS Health Inc., 564 U.S.
552, 569 (2011) (citing United Reporting, 528 U.S. at
41-42 (Scalia, J., joined by Thomas, J., concurring); id.
at 42-44 (Ginsburg, J., joined by O’Connor, Souter, and
Breyer, JJ., concurring); id. at 44-48 (Stevens, J.,
joined by Kennedy, J., dissenting)). Six justices
specifically agreed that the government may not
impose viewpoint-based conditions on the provision of
government-controlled information without raising
constitutional concerns. See United Reporting, 528
U.S. at 42-44 (Ginsburg, J., concurring); id. at 44-48
(Stevens, J., dissenting).
In her concurrence, Justice Ginsburg (joined by
Justices O’Connor, Souter, and Breyer) agreed with
the opinion of the Court that “California
could . . . constitutionally decide not to give out
arrestee address information at all.” Id. at 43
(Ginsburg, J., concurring). However, she compared the
government’s “provision of address information [to] a
kind of subsidy to people who wish to speak to or about
arrestees.” Id. (Ginsburg, J., concurring). As such,
“once a State decides to make such a benefit available
to the public, there are no doubt limits to its freedom
to decide how that benefit will be distributed.” Id.

App-19
(Ginsburg, J., concurring). For example, “California
could not . . . release address information only to those
whose political views were in line with the party in
power,” for surely a state “could not justify limited
disclosures that discriminated on the basis of
viewpoint or some other proscribed criterion.” Id. at
43-44 (Ginsburg, J., concurring) (citing Bd. of Cty.
Comm’rs v. Umbehr, 518 U.S. 668 (1996)). But as long
as “the award of the subsidy is not based on an
illegitimate criterion such as viewpoint,” a state “is
free to support some speech without supporting other
speech.” Id. at 43 (Ginsburg, J., concurring) (citing
Regan v. Taxation With Representation of Wash., 461
U.S. 540 (1983)).
In dissent, Justice Stevens (joined by Justice
Kennedy) reiterated the rule that California was free
to completely deny access to arrestee address
information without violating the First Amendment.
Id. at 45 (Stevens, J., dissenting). He also thought “it
equally clear that California could release the
information on a selective basis to a limited group of
users who have a special, and legitimate, need for the
information.” Id. (Stevens, J., dissenting). But he
agreed with Justice Ginsburg that the authority to
“withhold [government-controlled] information from
all persons does not insulate [a state’s] actions from
constitutional scrutiny.” Id. at 47 (Stevens, J.,
dissenting). “[W]hen the State makes information
generally available, but denies access to a small
disfavored class . . . based on their viewpoint, or
political affiliation, for example, the discrimination
would
clearly
be
invalid”
and
“obviously
unconstitutional.” Id. at 45-46 (Stevens, J.,
dissenting). “For even though government may

App-20
withhold a particular benefit entirely, it ‘may not deny
a benefit to a person on a basis that infringes his
constitutionally protected interests—especially his
interest in freedom of speech.’” Id. at 47-48 (Stevens,
J., dissenting) (quoting Perry v. Sindermann, 408 U.S.
593, 597 (1972)). In Justice Stevens’s view, the
California statute had denied access to the publishing
company “based on the fact that [the company
planned] to publish the information to others who, in
turn, intended to use it for a commercial speech
purpose that the State [found] objectionable.” Id. at 46
(Stevens, J., dissenting). Accordingly, “because the
State’s discrimination [was] based on its desire to
prevent the information from being used for
constitutionally protected purposes,” he would have
required California to “justify[] its conduct.” Id.
(Stevens, J., dissenting).
Of course, we are not bound by the separate
writings in United Reporting. Yet, we find the opinions
of the six Justices expressed therein to be persuasive
and are therefore disinclined to “blandly shrug them
off” simply because they did not comprise the holding
of the Court. United States v. Montero-Camargo, 208
F.3d 1122, 1132 n.17 (9th Cir. 2000) (en banc) (quoting
Zal v. Steppe, 968 F.2d 924, 935 (9th Cir. 1992)
(Noonan, J., concurring and dissenting)). These
writings illustrate the limited scope of Houchins.
Although the decision whether to disclose
government-controlled information “at all” is well
within the prerogatives of the political branches,
United Reporting, 528 U.S. at 40; see also Houchins,
438 U.S. at 12, when the government selectively
discloses information within its control, a First
Amendment claim will lie if the government denies

App-21
access to information “based on an illegitimate
criterion such as viewpoint,” United Reporting, 528
U.S. at 43 (Ginsburg, J., concurring); see also id. at 4547 (Stevens, J., dissenting). In the view of six Justices
in United Reporting, a contrary conclusion would be
irreconcilable with the constitutional precept that “the
Government may not deny a benefit to a person on a
basis that infringes his constitutionally protected
freedom of speech even if he has no entitlement to that
benefit.” See Agency for Int’l Dev. v. All. for Open Soc’y
Int’l, Inc., 570 U.S. 205, 214 (2013) (alteration adopted
and internal quotation marks omitted) (quoting
Rumsfeld v. Forum for Acad. and Institutional Rights,
Inc., 547 U.S. 47, 59 (2006)); see also Perry, 408 U.S.
at 597 (“[E]ven though a person has no ‘right’ to a
valuable governmental benefit and even though the
government may deny him the benefit for any number
of reasons, there are some reasons upon which the
government may not rely. It may not deny a benefit to
a person on a basis that infringes his constitutionally
protected interests—especially, his interest in
freedom of speech.”). As in other areas where the
legislature enjoys broad discretion in deciding
whether and how to confer a benefit or subsidy, the
government is not insulated from First Amendment
scrutiny when it discriminates invidiously in the
provision of government-controlled information. See,
e.g., Agency for Int’l Dev., 570 U.S. at 221 (striking
down a regulation because it “compel[led] as a
condition of federal funding the affirmation of a belief
that by its nature [could not] be confined within the
scope of the Government program”); Nat’l Endowment
of the Arts v. Finley, 524 U.S. 569, 587 (1998) (“If the
[government] were to leverage its power to award

App-22
subsidies on the basis of subjective criteria into a
penalty on disfavored viewpoints, . . . [or] if a subsidy
were ‘manipulated’ to have a ‘coercive effect,’ then
relief could be appropriate.” (quoting Ark. Writers’
Project, Inc. v. Ragland, 481 U.S. 221, 237 (1987)
(Scalia, J., dissenting))); Leathers v. Medlock, 499 U.S.
439, 450 (1991) (“[A] tax scheme that discriminates
among speakers does not implicate the First
Amendment unless it discriminates on the basis of
ideas.” (citing Regan, 461 U.S. at 540)).
Two of our sister circuits have come to similar
conclusions in finding that speaker-based or contentbased restrictions on access to government-controlled
information are “susceptible to a First Amendment
challenge.” Fusaro v. Cogan, 930 F.3d 241, 255 (4th
Cir. 2019); accord Lanphere & Urbaniak v. Colorado,
21 F.3d 1508 (10th Cir. 1994). In Fusaro, the Fourth
Circuit reviewed a Maryland statute that imposed two
conditions on access to the state’s voter-registration
list: (1) the requester must be a registered Maryland
voter; and (2) the information may only be used for
purposes “related to the electoral process.” Id. at 244.
The plaintiff—a resident and registered voter of
Virginia—was denied access to Maryland’s voterregistration list. Id. at 245-46. He then challenged the
Maryland statute in federal court, alleging that it
burdened speech in violation of the First Amendment.
Id. at 248. Relying on Houchins, the district court
dismissed the plaintiff’s complaint on the grounds that
he had no First Amendment right of access to the
voter-registration list. Id. The Fourth Circuit
reversed. Unlike the district court, the court viewed
the plaintiff’s claim as “a free speech challenge to
conditions that a state has imposed on the release of

App-23
voter registration data,” id. at 256, not a right-ofaccess claim (which would have been foreclosed by
Houchins), id. at 249-50. Therefore, although “neither
the Supreme Court in Houchins nor any appellate
court applying that decision ha[d] been faced with a
situation where the government provided information
only to a discrete group for limited purposes,” id. at
253, the court held that the plaintiff’s claim was
“cognizable under the First Amendment,” id. at 249.
The court found that the separate writings in United
Reporting “strongly signaled that . . . some conditions
on the disclosure of government information can run
afoul of the Free Speech Clause, giving rise to a viable
constitutional claim.” Id. at 253. Moreover, the court
reasoned that restrictions based on the identity of a
speaker or the content of a speaker’s message like
those imposed by the Maryland statute “are
frequently deemed to be constitutionally suspect” in
other contexts. Id. at 252. Accordingly, the court
concluded that “a First Amendment claim that
challenges suspect conditions on access to government
information must be available, at least where the
plaintiff alleges circumstances indicating improper
interference with protected speech.” Id. at 255.
In Lanphere & Urbaniak, the Tenth Circuit
considered a First Amendment challenge to a
Colorado statute that permitted “public access to
criminal justice and official action records” only if the
requester signed a statement affirming that the
records would not be used “for the purpose of directly
soliciting business for pecuniary gain.” 21 F.3d at
1510-11. The plaintiffs argued that the Colorado
statute imposed content-based conditions on access to
government records by denying access to those who

App-24
wished to use the records to engage in commercial
speech, thus triggering First Amendment scrutiny. Id.
at 1511. On the other hand, the defendants (like the
State in this case) contended that the plaintiffs had
brought “a simple access-to-records case” that did not
raise any First Amendment issues. Id. The Tenth
Circuit agreed that the plaintiffs had no First
Amendment right of access to the government records
under Houchins. Id. at 1511-12. But it disagreed that
its inquiry ended there. Id. at 1512. Although
Colorado had the authority to deny access to the
records entirely, it instead “disallow[ed] the release of
records to those wishing to use them for commercial
speech, while allowing the release of the same records
to those having a noncommercial purpose.” Id. at
1512-13. Because this regulatory scheme imposed “a
content-based restriction on protected speech,” the
court concluded that the Colorado statute did “in fact
implicate the First Amendment” and was subject to
the appropriate level of scrutiny. Id. at 1513.
Here, Appellants challenge a law that regulates
the disclosure of government-controlled information.
Under Houchins, they have no First Amendment right
of access to this information. 438 U.S. at 15. But like
the plaintiffs in Fusaro and Lanphere & Urbaniak,
Appellants do not rely on a right-of-access theory.
Instead, Appellants argue that Washington law denies
them access to Provider Information because of the
views they express on a particular topic. The State’s
argument that “laws restricting public access to
records do not implicate the First Amendment” relies
on a misapplication of Houchins, which does not stand
for the proposition that invidious viewpoint
discrimination in the provision of government-

App-25
controlled information is beyond constitutional
scrutiny. We therefore agree with the Fourth Circuit
and Tenth Circuit that “a First Amendment
claim . . . must be available” in this context, Fusaro,
930 F.3d at 255; accord Lanphere & Urbaniak, 21 F.3d
at 1512-13, lest the government be permitted to
“discriminate invidiously . . . in such a way as to aim
at the suppression of dangerous ideas,” Regan, 461
U.S. at 548 (alteration adopted and internal
quotations marks omitted) (quoting Cammarano v.
United States, 358 U.S. 498, 513 (1959)). Accordingly,
we turn to the merits of Appellants’ claim.
B
Appellants articulate two discernable arguments
in support of their claim that Revised Code of
Washington sections 42.56.640 and 43.17.410—which
codify Initiative 1501’s prohibition on public access to
the sensitive personal information of vulnerable
individuals and their in-home care providers—deny
them access to Provider Information based on the
views they espouse on the subject of collective
bargaining. Neither argument is supported by the text
or operation of the challenged provisions.
Appellants first invoke what is known as the
“unconstitutional conditions” doctrine by asserting
that sections 42.56.640 and 43.17.410 condition
receipt
of
a
government
benefit—Provider
Information—on a requester’s views, such that
Appellants are denied access to Provider Information
because they do not espouse “a State-preferred view”
on collective bargaining. In the First Amendment
context, this doctrine provides that “the Government
may not deny a benefit to a person on a basis that

App-26
infringes his constitutionally protected freedom of
speech even if he has no entitlement to that benefit,”
Agency for Int’l Dev., 570 U.S. at 214 (alteration
adopted and internal quotation marks omitted)
(quoting Rumsfeld, 547 U.S. at 59). However, the
challenged provisions do not operate as Appellants
suggest, for they are completely “silent . . . concerning
any speaker’s point of view.” See Members of the City
Council of the City of L.A. v. Taxpayers for Vincent, 466
U.S. 789, 804 (1984) (emphasis added). First, section
43.17.410 states:
To protect vulnerable individuals and their
children from identity crimes and other forms
of victimization, neither the state nor any of
its agencies shall release sensitive personal
information of vulnerable individuals or
sensitive personal information of in-home
caregivers for vulnerable populations, as
those terms are defined in [Wash. Rev. Code
section 42.56.640].
Second, section 42.56.640 provides: “Sensitive
personal information of vulnerable individuals and
sensitive personal information of in-home caregivers
for vulnerable populations is exempt from inspection
and copying under [the PRA].” By their terms, these
provisions deny access to Provider Information
irrespective of a requester’s views, ideology, or
message on any particular subject. The implication of
Appellants’ argument is that they could adopt a
different viewpoint regarding collective bargaining in
order to obtain Provider Information. But this is not
so. Under the plain language of sections 42.56.640 and
43.17.410, pro-collective-bargaining voices and anti-

App-27
collective-bargaining voices (and all voices, for that
matter) are denied access to Provider Information
unless the information is requested under one of
several narrow circumstances. Therefore, Appellants’
argument that sections 42.56.640 and 43.17.410
condition access to Provider Information on the views
of the requester is simply unfounded.
Nevertheless, Appellants contend further that the
statutory provisions codifying Initiative 1501
discriminate among viewpoints, because they permit
disclosure of Provider Information to the Unions (who
convey a certain message on the subject of collective
bargaining), while denying equal access to Appellants
(who convey a competing message). We disagree. “A
regulation engages in viewpoint discrimination when
it regulates speech based on the specific motivating
ideology or perspective of the speaker.” First Resort,
Inc. v. Herrera, 860 F.3d 1263, 1277 (9th Cir. 2017)
(emphasis added) (internal quotation marks omitted)
(quoting Reed v. Town of Gilbert, 576 U.S. 155, 168
(2015)); see also Reed, 576 U.S. at 163 (“Government
regulation of speech is content based if a law applies
to particular speech because of the topic discussed or
the idea or message expressed.” (emphasis added)). In
other words, the government engages in viewpoint
discrimination when it “targets . . . particular views
taken by speakers on a subject.” Ctr. for Bio-Ethical
Reform, Inc. v. City and County of Honolulu, 455 F.3d
910, 921 (9th Cir. 2006) (emphasis added) (internal
quotation marks omitted) (quoting Brown v. Cal. Dep’t
of Transp., 321 F.3d 1217, 1223 (9th Cir. 2003)).
However, the challenged provisions do not “draw[]
distinctions based on the message[s]” conveyed by
either Appellants or the Unions. See Reed, 576 U.S. at

App-28
163 (emphasis added). Under Revised Code of
Washington section 42.56.645(1)(d), the Unions
receive access to Provider Information, because “[t]he
information is being provided to a representative
certified or recognized under [section] 41.56.080.” This
provision does not permit the Unions access to
Provider Information based on the views they espouse
on the subject of collective bargaining. Rather, the
Unions’ current access to Provider Information is
based entirely on their legal status as certified
exclusive
bargaining
representatives
under
Washington law. See Wash. Rev. Code. § 41.56.080. 7
The Supreme Court’s decision in Perry Education
Ass’n underscores this distinction. In Perry Education
Ass’n, a collective-bargaining agreement between a
school district and the teachers’ exclusive bargaining
representative provided the representative with
exclusive access to the school district’s “interschool
mail system and teacher mailboxes.” 460 U.S. at 3941. A rival teachers union, who was denied access to
the mail system and mailboxes, challenged the access
policy under the First Amendment. Id. at 41. The
Supreme Court upheld the policy, finding it to be a
reasonable regulation of speech in a nonpublic forum,
because of “the special responsibilities” associated
with being the exclusive bargaining representative for
the school district’s teachers. Id. at 50-55. In doing so,
the Court rejected the contention that the access
The Supreme Court in Janus acknowledged that a union’s
ability to “obtain[] information about employees” was one of the
many “benefits” and “special privileges” of being the exclusive
bargaining representative of a collective bargaining unit. 138 S.
Ct. at 2467.
7

App-29
policy “favor[ed] a particular viewpoint, that of the
[exclusive bargaining representative], on labor
relations.” Id. at 48-49. But there was “no indication
that the school board intended to discourage one
viewpoint and advance another,” and the Court
thought it “more accurate to characterize the access
policy as based on the status of the respective unions
rather than their views.” Id. at 49. 8
Our dissenting colleague suggests “four main reasons” that
“Perry does not save Initiative 1501.” Dissent at 75-79. However,
none of the four undermine Perry. First, the dissent fails to
explain why it matters that Perry “concerned access to physical
government property, not access to government-held
information.” See id. at 75-76. Just as the state in Perry had “the
right to make distinctions in access on the basis of subject matter
and speaker identity,” id. at 75 (quoting Perry, 460 U.S. at 49),
the State in this case is free to subsidize “some speech without
supporting other speech” as long as “the award of the subsidy is
not based on an illegitimate criterion such as viewpoint.” United
Reporting, 528 U.S. at 43 (Ginsburg, J., concurring). Thus, it does
not matter that the Court in Perry was dealing with a “nonpublic
forum” and the “different considerations” accompanying that
context rather than a government subsidy of speech like that at
issue here. The bottom line: the State has the right to pick and
choose which speech is subsidized so long as it does not
discriminate on the basis of viewpoint. See Leathers, 499 U.S. at
450.
8

As to the dissent’s second point, we join the Supreme Court in
refusing to find that “[Initiative 1501] is ‘viewpoint based’ simply
because its enactment was motivated by the conduct of the
partisans on one side of a debate.” Hill v. Colorado, 530 U.S. 703,
724 (2000); accord Frisky v. Schultz, 487 U.S. 474, 482 (1988)
(finding that an ordinance restricting picketing was “content
neutral” despite record evidence that it was enacted to suppress
the activities of antiabortion protestors).
The dissent’s third and fourth arguments—regarding the
“reasonableness” of Initiative 1501—also miss the mark. Perry

App-30
An example will demonstrate the propriety of
applying Perry Education Ass’n’s rationale in this
case. Since 2016, Thurber, Benn, and the Freedom
Foundation have sought to replace SEIU 925 with
dealt with a government restriction on speech in a nonpublic
forum. See 460 U.S. at 49. In that context, courts must ask two
distinct questions: (1) whether the restrictions “discriminate
against speech on the basis of viewpoint” and (2) whether the
restrictions are “reasonable in light of the purpose served by the
forum.” Good News Club v. Milford Cent. Sch., 533 U.S. 98, 10607 (2001) (quoting Cornelius v. NAACP Legal Def. & Educ. Fund,
Inc., 743 U.S. 788, 806 (1985)); accord Perry, 460 U.S. at 48-54
(applying a reasonableness analysis after determining that the
regulation did not constitute viewpoint discrimination);
Cornelius, 473 U.S. at 806 (“Control over access to a nonpublic
forum can be based on subject matter and speaker identity so
long as the distinctions drawn are reasonable in light of the
purpose served by the forum and are viewpoint neutral.”);
Rosenberger v. Rector & Visitors of Univ. of Va., 515 U.S. 819,
829-30 (1995) (“Once it has opened a limited forum, . . . [t]he
State may not exclude speech where its distinction is not
‘reasonable in light of the purpose served by the forum, nor may
it discriminate against speech on the basis of its viewpoint.”
(citation omitted) (quoting Cornelius, 473 U.S. at 806)). However,
while viewpoint neutrality is “a broadly applicable requirement
to all laws implicating First Amendment concerns with a test
that does not vary,” Wisc. Educ. Ass’n Council v. Walker, 705 F.3d
640, 650 n.8 (7th Cir. 2013) (emphasis added), the
“reasonableness” inquiry does not apply here, where we are
examining the constitutionality of a speech subsidy, see Leathers,
499 U.S. at 450 (stating that a speech subsidy “that discriminates
among speakers does not implicate the First Amendment unless
it discriminates on the basis of ideas”); see also United Reporting,
528 U.S. at 43 (noting that as long as “the award of the subsidy
is not based on an illegitimate criterion such as viewpoint,” a
state “is free to support some speech without supporting other
speech” (Ginsburg, J., concurring)). Therefore, the existence of
reasonable alternatives plays no role in the present analysis.

App-31
PNFCCA as the exclusive bargaining representative
of family child care providers. Appellants’ argument
that Initiative 1501 discriminates between their views
and the views of the Unions begs the question: Who
would receive access to Provider Information if
PNFCCA became the new exclusive bargaining
representative of family child care providers? The
answer is quite simple under the plain terms of section
42.56.645(1)(d). First, because SEIU 925 would no
longer be “a representative certified or recognized
under [section] 41.56.080,” it would assuredly be
denied access to Provider Information (unless it
sought the information under a different exception).
See Wash. Rev. Code § 42.56.645(1)(d). Second, as the
newly certified exclusive bargaining representative
under section 41.56.080, PNFCCA would have
unconditional access to Provider Information. See id.
Under this scenario, the views of the two competing
unions would be irrelevant, because the sole factor
deciding who may lawfully access Provider
Information under section 42.56.645(1)(d) is whether
a requester has achieved the legal status of an
exclusive bargaining representative under section
41.56.080. 9 Therefore, Appellants’ argument that
The dissent argues that “[l]egal status is merely a label that
the law creates,” Dissent at 72 (internal quotation marks
omitted), and asserts that our conclusion “that the law here
distinguishes based on legal status . . . is only to ask the
viewpoint discrimination question, not to answer it,” id. at 72
(internal quotation marks omitted). However, unlike the
dissent’s hypothetical examples, see id. at 72, there is no
underlying ideological test that must be met in order to receive
the speech subsidy at issue in this case. Indeed, as explained
above, the Provider Information is awarded based on status
9

App-32
section 42.56.645(1)(d) currently provides the Unions
with access to Provider Information based on the
Unions’ collective-bargaining views finds no support
in the text or operation of the statute. 10
alone; the recipients’ adherence to a given viewpoint plays no role
in determining who receives it.
The dissent also argues that our approach somehow
contravenes Janus, and would even result in that case “com[ing]
out the other way.” See Dissent at 72-74. This is plainly incorrect.
We do not dispute the Supreme Court’s holding in Janus that
union speech “in the context of collective bargaining is of great
public importance.” 138 S. Ct. at 2475. However, the mere fact
that “[u]nions have views on topics of public concern,” Dissent at
73, does not transform Initiative 1501 into a viewpoint-based
regulation on speech. At bottom, the speech subsidies at issue in
this case are awarded based on status, without regard for
adherence to a specific viewpoint.
The dissent disagrees with our assessment, arguing that
Initiative 1501 does discriminate on the basis of viewpoint
because all unions “have an obvious, intrinsic view on whether
unions should be disempowered: they understandably disagree
with that position. Unions are, in other words, ‘pro-union.’”
Dissent at 67. Similarly, the dissent asserts that Initiative 1501
discriminates in favor of those in power: “[i]ncumbents seek to
promote incumbency; those in power wish to retain it.” Id. at 6969; accord id. at 67 (stating that Initiative 1501’s “speaker-based
distinction powerfully favors those views inherent to incumbent
unions while creating obstacles to speech for anyone with
opposing views”). On these bases, the dissent concludes that
Initiative 1501 “necessarily promot[es] the view that the
incumbent Unions should stay in power.” Id. at 69-70. However,
it does not matter to our analysis whether a speech subsidy
happens to affect one particular viewpoint more than another.
Indeed, by the dissent’s logic, every selective speech subsidy
could be struck down for viewpoint discrimination. See Wisc.
Educ. Ass’n Council, 705 F.3d at 648-49 (noting that this
argument cannot be squared with the Supreme Court’s analysis
in Regan and “proves too much: if different speakers necessarily
10

App-33
We also reject Appellants’ suggestion that these
challenged provisions are viewpoint discriminatory
simply because they disadvantage Appellants’
message. “A facially neutral statute . . . [with] a
legitimate end is not discriminatory simply because it
affects some groups more than others.” Interpipe
Contracting, Inc. v. Becerra, 898 F.3d 879, 900 (9th
Cir. 2018); see also Wisc. Educ. Ass’n Council, 705 F.3d
at 650 (“That the benefits of [a] subsidy may fall more
heavily on groups with one particular viewpoint does
not transform a facially neutral statute into a
discriminatory one.”). Instead, “[a] regulation that
serves purposes unrelated to the content of expression
is deemed neutral, even if it has an incidental effect on
some speakers or messages but not others.” Christian
Legal Soc’y v. Martinez, 561 U.S. 661, 695 (2010)
(quoting Ward v. Rock Against Racism, 491 U.S. 781,
791 (1989)); see also Madsen v. Women’s Health Ctr.,
Inc., 512 U.S. 753, 763 (1994) (“[T]he fact that the
injunction covered people with a particular viewpoint
does not itself render the injunction content or
viewpoint based.”). As we already explained, “a law
affecting entities holding a particular viewpoint is not
espouse different viewpoints, then any selective [speech subsidy]
decision would violate the First Amendment as viewpoint
discriminatory”). The relevant question is simply whether
Initiative 1501 “regulates speech based on the specific motivating
ideology or perspective of the speaker.” First Resort, 860 F.3d at
1277 (emphasis added) (internal quotation marks omitted)
(quoting Reed, 576 U.S. at 168). As explained above, Initiative
1501 does not tie access to the State-held records to any
particular viewpoint or ideology. Therefore, that the Unions
happen to hold certain viewpoints and also happen to receive the
benefit of this subsidy is irrelevant.

App-34
viewpoint discriminatory unless it targets those
entities because of their viewpoint.” Interpipe
Contracting, 898 F.3d at 900; see also First Resort, 860
F.3d at 1277-78 (finding a regulation viewpointneutral, even though it applied only to entities holding
a certain viewpoint, because it did not regulate those
entities “based on” those views). Thus, the mere fact
that the challenged provisions “disproportionately
impact” Appellants’ message “does not transform
[their] facially neutral language into an invidiously
discriminatory” regulation of government-controlled
information. Wisc. Educ. Ass’n Council, 705 F.3d at
651. 11
Appellants also rely on Meyer v. Grant, 486 U.S. 414 (1988),
to argue that Initiative 1501 violated the First Amendment
because it “restrict[ed] access to the most effective, fundamental,
and perhaps economical avenue of political discourse, direct oneon-one communication.” See id. at 424. But Meyer is inapposite to
this case. In Meyer, a Colorado statute prohibited proponents of
an initiative from paying petition circulators to help obtain the
necessary signatures to meet the requirements to place the
initiative on the ballot. Id. at 416-17. The Supreme Court found
that the statute restricted the initiative proponents’ political
expression by restricting an otherwise available method of
communication. Id. at 422-23. However, Initiative 1501 did not
similarly restrict the means by which Appellants may
communicate their message. As the district court found,
Appellants “may canvass, hire paid canvassers, distribute
pamphlets, make speeches, advertise and hold meetings, picket,
or send mailers to distribute their speech.” Initiative 1501 simply
refused to subsidize Appellants’ efforts to identify its targeted
audience with Provider Information, to which Appellants have no
entitlement. See Houchins, 438 U.S. at 15. The Supreme Court
has already “reject[ed] the ‘notion that First Amendment rights
are somehow not fully realized unless they are subsidized by the
State.’” Regan, 461 U.S. at 546 (quoting Cammarano, 358 U.S. at
515 (Douglas, J., concurring)). And although the nature of in11

App-35
In sum, Initiative 1501 did not impose viewpointbased conditions on the disclosure of Provider
Information, nor did it discriminate between the
competing views of Appellants and the Unions. We
reject Appellants’ claim accordingly. 12
IV
Boardman, Thurber, and Benn (“Individual
Appellants”) further claim that Initiative 1501
impaired their associational rights. The First
Amendment implicitly protects the freedom of
expressive association, which in turn “presupposes a
freedom not to associate.” Roberts v. U.S. Jaycees, 468
U.S. 609, 623 (1984) (emphasis added); accord Janus,
138 S. Ct. at 2463 (“The right to eschew association for
expressive purposes is likewise protected.”).
Compelled or mandatory associations are therefore
“permissible only when they serve a ‘compelling state
interest that cannot be achieved through means
significantly less restrictive of associational
freedoms.’” Knox v. Serv. Emps. Int’l Union, Local
1000, 567 U.S. 298, 310 (2012) (alterations adopted)
(quoting Roberts, 468 U.S. at 623).

home care providers’ work creates an obstacle for Appellants, a
state has no duty to remove obstacles “not of its own creation.”
Id. at 549-50 (quoting Harris v. McRae, 448 U.S. 297, 316 (1980)).
Appellants have waived any argument that Initiative 1501
enacted content-neutral regulations of government-controlled
information that incidentally burden speech, because they failed
to raise such an argument in their opening brief. See Smith v.
Marsh, 194 F.3d 1045, 1052 (9th Cir. 1999) (“[O]n appeal,
arguments not raised by a party in its opening brief are deemed
waived.”).
12

App-36
In the Individual Appellants’ view, they are
hopelessly stuck in a compelled association with the
Unions. However, the record reflects very little
“association” between the parties. The Individual
Appellants are not members of the Unions, nor do they
pay agency fees to the Unions. The only relationship
between the parties arises from the Unions’ exclusive
representation of the Individual Appellants in
collective bargaining.
As we recently held in Mentele v. Inslee, 916 F.3d
783 (9th Cir. 2019), this limited relationship does not
implicate the Individual Appellants’ associational
rights. Id. at 789. In Mentele, two family child care
providers challenged Revised Code of Washington
section 41.56.028, which requires exclusive collective
bargaining representation for family child care
providers. Id. at 784-85. The plaintiffs argued “that
their First Amendment right to expressive association
was violated when Washington recognized SEIU [925]
as the exclusive bargaining representative for all
childcare providers.” Id. at 785. Relying on the
Supreme Court’s decision in Minnesota State Board of
Community Colleges v. Knight, 465 U.S. 271 (1984),
we held “that Washington’s authorization of an
exclusive bargaining representative does not infringe
[a family child care provider’s] First Amendment
rights.” Mentele, 916 F.3d at 789.
In Knight, a Minnesota statute required the state
to “meet and confer” with its professional employees
on matters outside the scope of collective bargaining.
465 U.S. at 273-74. Under that statute, if professional
employees in a collective bargaining unit had selected
an exclusive representative for collective bargaining

App-37
negotiations, that representative would also serve as
their exclusive representative during the “meet and
confer” process. Id. Several faculty members of
Minnesota’s community colleges (who formed a single
collective
bargaining
unit)
challenged
the
constitutionality of their exclusive representative’s
role in the “meet and confer” process. Id. at 278. In
upholding the statute, the Supreme Court concluded
that the faculty members’ “freedom to associate or not
to associate with whom they please . . . ha[d] not been
impaired” by requiring exclusive representation
during the “meet and confer” process. Id. at 288-89.
The faculty members were “free to form whatever
advocacy groups they [would] like,” and were “not
required to become members” of the union who
represented them in the “meet and confer” process. Id.
at 289. Any “pressure” the faculty members may have
felt to join the union in order to have a voice in the
“meet and confer” process was “no different from the
pressure they may [have felt] to join [the union]
because of its unique status” during collective
bargaining, “a status the Court . . . summarily
approved.” Id. at 289-90. Thus, the Supreme Court
held that the faculty members’ “associational freedom
ha[d] been wholly unimpaired” by the Minnesota
statute. Id. at 290 n.12.
In Mentele, we found that Knight had addressed
and “approved the requirement that bound non-union
dissenters to exclusive union representation.” Mentele,
916 F.3d at 789. In making this finding, we rejected
the argument that Janus overruled Knight subsilentio by deciding that public-sector unions could not
constitutionally compel non-union members to pay
agency fees. Id.; see also Janus, 138 S. Ct. at 2486

App-38
(“States and public-sector unions may no longer
extract
agency
fees
from
nonconsenting
employees. . . . This procedure violates the First
Amendment and cannot continue.”). A plaintiff in
Mentele had argued that we were bound by a passage
in Janus, see Mentele, 916 F.3d at 789, which stated
that the “require[ment] that a union serve as exclusive
bargaining agent for its employees . . . [was] itself a
significant impingement on associational freedoms,”
although it is an impingement that is “tolerated” in
the context of collective bargaining, Janus, 138 S. Ct.
at 2478 (emphasis added). We held that this passage
was mere dictum that did not “indicat[e] that the
Court intended to revise the analytical underpinnings
of Knight or otherwise reset the longstanding rules
governing the permissibility of mandatory exclusive
representation.” Mentele, 916 F.3d at 789. 13
Our sister circuits who have addressed the constitutional
propriety of exclusive collective bargaining representation on
behalf of in-home care providers have similarly found that Knight
forecloses any freedom-of-association challenge based on this
representation. See D’Agostino v. Baker, 812 F.3d 240, 243-44
(1st Cir. 2016) (“Since [the] non-union professionals [in
Knight] . . . could claim no violation of associational rights by an
exclusive bargaining agent speaking for their entire bargaining
unit when dealing with the state even outside collective
bargaining, the same understanding of the First Amendment
should govern the position taken by the family care providers
here, whose objection goes only to bargaining representation.”);
Hill v. Serv. Emps. Int’l Union, 850 F.3d 861, 864-66 (7th Cir.
2017) (holding that Knight “foreclose[d]” the argument that an
Illinois statute requiring exclusive representation in collective
bargaining was “a mandatory association subject[] to heightened
scrutiny”); Bierman v. Dayton, 900 F.3d 570, 574 (8th Cir. 2018)
(“On the merits, the homecare providers contend that [a
Minnesota statute] creates a ‘mandatory agency relationship’
13

App-39
In light of Knight and Mentele, the Individual
Appellants’ relationship with the Unions raises no
First Amendment concerns. Nevertheless, the
Individual Appellants argue that Initiative 1501
impaired their freedom of association, regardless of
the constitutional propriety of exclusive bargaining
representation. They claim that Initiative 1501 has
effectively disabled them from removing the Unions as
their exclusive bargaining representatives by
preventing the Individual Appellants from obtaining
Provider Information. They allege that use of Provider
Information is “the only feasible means” of building
the requisite support among in-home care providers to
force an election for a new exclusive bargaining
representative. Without the assistance of Provider
Information, the Individual Appellants argue that
they will be compelled to associate with the Unions in
“perpetuity.”
We are unpersuaded for several reasons. First, we
must start with the obvious: the Individual Appellants
are not entitled to Provider Information. See
Houchins, 438 U.S. at 15. Therefore, by denying the
Individual Appellants access to this information,
Initiative 1501 simply refused to subsidize their
efforts to replace the Unions. This is of no
between them and the exclusive representative that violates
their right to free association under the First and Fourteenth
Amendments. This argument, however, is foreclosed by Knight.”);
Jarvis v. Cuomo, 660 F. App’x 72, 74 (2d Cir. 2016) (unpublished)
(“Plaintiffs contend that New York’s recognition of
defendant . . . as the exclusive bargaining representative for
their bargaining unit violates their First Amendment rights
because it compels union association. The argument is foreclosed
by [Knight] . . . .”).

App-40
constitutional concern. See Regan, 461 U.S. at 546
(“We again reject the ‘notion that First Amendment
rights are somehow not fully realized unless they are
subsidized by the State.’” (quoting Cammarano, 358
U.S. at 515 (Douglas, J., concurring))). As we have
already said, “although government may not place
obstacles in the path of a person’s exercise of freedom
of [association], it need not remove those not of its own
creation.” See Regan, 461 U.S. at 549-50 (alterations
adopted) (quoting Harris, 448 U.S. at 316). Second,
even if we were to characterize Initiative 1501 as
placing a burden on the Individual Appellants’ ability
to remove the Unions as exclusive bargaining
representatives, we find no authority (and Appellants
cite to none) supporting the proposition that the First
Amendment requires the government to make it
simple enough for a collective bargaining unit to
change its exclusive representative—a relationship
that does not itself impair associational rights. See
Mentele, 916 F.3d at 789. And third, the Individual
Appellants rely largely on dictum from Janus that
exclusive bargaining representation is “a significant
impingement on associational freedoms that would
not be tolerated in other contexts.” 138 S. Ct. at 2478.
As we found in Mentele, this passage does not
undermine Knight’s conclusion that mandatory
exclusive bargaining representation in no way
impinges First Amendment rights. Mentele, 916 F.3d
at 789. Thus, we conclude that Initiative 1501 did not
implicate the Individual Appellants’ associational
freedom, which has been left “wholly unimpaired.” See
Knight, 465 U.S. at 290 n.12.

App-41
V
We need only remark briefly on Appellants’ claim
that Initiative 1501 violates the First Amendment
rights of other in-home care providers by denying “the
providers the right to determine for themselves if they
want to hear Appellants’ messages,” because
Appellants do not have standing to assert the rights of
other in-home care providers. 14
Our jurisdiction “is limited to actual cases and
controversies.” Alaska Right to Life Political Action
Comm. v. Feldman, 504 F.3d 840, 848 (9th Cir. 2007)
(internal quotation marks omitted) (quoting Allen v.
Wright, 468 U.S. 737, 750 (1984)). “One of the
controlling elements in the definition of a case or
controversy under Article III is standing.” Hein v.
Freedom From Religion Found., Inc., 551 U.S. 587,
598 (2007) (alteration adopted and internal quotation
marks omitted) (quoting ASARCO Inc. v. Kadish, 490
U.S. 605, 613 (1989)). To establish standing, a plaintiff
must show that he “(1) suffered an injury in fact,
(2) that is fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be redressed by
a favorable judicial decision.” Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016). “In addition to these
Article III requirements of injury in fact, causation,
After rejecting Appellants’ right-to-receive-information claim
on the merits, the district court noted that Appellants failed to
include this claim in their complaint. Because the issue was
“raised sufficiently for the trial court to rule on it,” it has been
properly preserved for appeal. Yamada v. Nobel Biocare Holding
AG, 825 F.3d 536, 543 (9th Cir. 2016) (quoting Whittaker Corp. v.
Execuair Corp., 953 F.2d 510, 515 (9th Cir. 1992)); see also id.
(“[W]hen a party takes a position and the district court rules on
it, there is no waiver.”).
14

App-42
and redressibility, prudential standing concerns
require that we consider, for example, . . . whether the
plaintiff is asserting her own rights or the rights of
third parties . . . .” Alaska Right to Life Political
Action Comm., 504 F.3d at 848; see also Hollingsworth
v. Perry, 570 U.S. 693, 708 (2013) (“It is, however, a
‘fundamental restriction on our authority’ that ‘in the
ordinary course, a litigant must assert his or her own
legal rights and interests, and cannot rest a claim to
relief on the legal rights or interests of third parties.’”
(alteration adopted) (quoting Powers v. Ohio, 499 U.S.
400, 410 (1991))).
Appellants claim that Initiative 1501 infringed
other in-home care providers’ First Amendment right
to receive information. Surely, the First Amendment
“protects the right to receive information and ideas.”
Stanley v. Georgia, 394 U.S. 557, 564 (1969). However,
Appellants do not “assert their own legal rights,” but
“those of third parties.” See Johnson v. Stuart, 702
F.2d 193, 196 (9th Cir. 1983) (emphasis added). They
have therefore failed to establish standing to bring
this claim.
VI
Finally, we address Appellants’ claim that
Initiative 1501 violated the Equal Protection Clause.
“The Equal Protection Clause of the Fourteenth
Amendment commands that no State shall ‘deny to
any person within its jurisdiction the equal protection
of the laws,’ which is essentially a direction that all
persons similarly situated should be treated alike.”
Gallinger v. Becerra, 898 F.3d 1012, 1016 (9th Cir.
2018) (quoting City of Cleburne v. Cleburne Living
Ctr., 473 U.S. 432, 439 (1985)).

App-43
“To prevail on [their] equal-protection claim,
[Appellants] ‘must [first] show that a class that is
similarly situated has been treated disparately.’” Roy
v. Barr, 960 F.3d 1175, 1181 (9th Cir. 2020) (quoting
Ariz. Dream Act Coal. v. Brewer, 855 F.3d 957, 966
(9th Cir. 2017)). “[O]ur first step is to identify the
state’s classification of groups.” Gallinger, 898 F.3d at
1016 (alteration adopted and internal quotation
marks omitted) (quoting Country Classic Dairies, Inc.
v. Milk Control Bureau, 847 F.2d 593, 596 (9th Cir.
1988)). Here, Initiative 1501 exempted certified
exclusive bargaining representatives from the general
prohibition on access to Provider Information. See
Wash. Rev. Code § 42.56.645(1)(d). Having “identified
a classified group, we look for a control group
composed of individuals who are similarly situated to
those in the classified group in respects that are
relevant to the state’s challenged policy.” Gallinger,
898 F.3d at 1016 (citations omitted). Appellants
contend that they are similarly situated to the Unions
(who are currently the certified exclusive bargaining
representatives of in-home care providers), because
“both seek to utilize updated provider lists to engage
in protected speech with providers.” The State
contends that Appellants are in no way similarly
situated to an exclusive bargaining representative
who is required under Washington law to represent all
members of a collective bargaining unit in collective
bargaining negotiations. However, we need not
resolve this dispute, because Initiative 1501 satisfies
the appropriate level of scrutiny even if Appellants
were similarly situated to this classified group. See
Roy, 960 F.3d at 1181 (“If the two groups are similarly
situated, we determine the appropriate level of

App-44
scrutiny and then apply it.” (quoting Gallinger, 898
F.3d at 1016)).
As we have already discussed, Appellants have
failed to demonstrate that Initiative 1501 has
burdened their First Amendment rights. Accordingly,
the initiative “need not be tested by the strict scrutiny
applied when government action impinges upon a
fundamental right protected by the Constitution.” 15
Perry Educ. Ass’n, 460 U.S. at 54. Instead, Initiative
1501 “‘need only rationally further a legitimate state
purpose’ to be valid under the Equal Protection
Clause.” Knight, 465 U.S. at 291 (quoting Perry Educ.
Ass’n, 460 U.S. at 54); accord Armour v. City of
Indianapolis, 566 U.S. 673, 680 (2012). Under
rational-basis review, “[a] statute is presumed
constitutional, and ‘the burden is on the one attacking
the legislative arrangement to negative every
conceivable basis which might support it,’ whether or
not the basis has a foundation in the record.” Heller,
509 U.S. at 320-21 (alteration adopted and citations
omitted) (quoting Lehnhausen v. Lake Shore Auto
Parts Co., 410 U.S. 356, 364 (1973)). “The Equal
Protection Clause is satisfied so long as there is a
plausible policy reason for [a] classification, . . . and
the relationship of the classification to its goal is not
so attenuated as to render the distinction arbitrary or
irrational.” Crawford v. Antonio B. Won Pat Int’l
Airport Auth., 917 F.3d 1081, 1095-96 (9th Cir. 2019)
1095-96 (citations omitted) (quoting Nordlinger v.
Hahn, 505 U.S. 1, 11 (1992)). “Given the standard of
review, it should come as no surprise that [courts]
15 Appellants do not claim that Initiative 1501 “proceed[s] along
suspect lines.” See Heller v. Doe, 509 U.S. 312, 319 (1993).

App-45
hardly ever strike[] down a policy as illegitimate
under rational basis scrutiny.” Trump v. Hawaii, 138
S. Ct. 2392, 2420 (2018).
The challenged provisions of Initiative 1501
satisfy rational-basis review. First, the State has a
legitimate interest in protecting seniors and other
vulnerable individuals—and all of its residents, for
that matter—from identity theft and other financial
crimes, and Washington voters “could have rationally
decided” that generally prohibiting public access to the
personal information of in-home care providers—
many of whom work within the homes of their
clients—”would further that interest.” Crawford, 917
F.3d at 1095 (emphasis removed) (quoting Johnson v.
Rancho Santiago Cmty. Coll. Dist., 623 F.3d 1011,
1031 (9th Cir. 2010)). Second, Washington voters
could have rationally decided that providing the
exclusive bargaining representatives of in-home care
providers with access to Provider Information would
further the “legitimate state [interest] . . . in the
special responsibilities of an exclusive bargaining
representative.” See Perry Educ. Ass’n, 460 U.S. at
54. 16
Appellants argue that Initiative 1501 has no rational basis
for prohibiting public access to the personal information of family
child care providers in particular, because these providers do not
care for “vulnerable individuals” (as they are defined under
Initiative 1501). However, this argument was not presented to
the district court. Because Appellants “fail[] to address any of the
exceptions to the general rule that an argument raised for the
first time on appeal is waived,” we decline to address their
belated argument. See Club One Casino, Inc. v. Bernhardt, 959
F.3d 1142, 1153 (9th Cir. 2020)). “The district court is not merely
a way station through which parties pass by arguing one issue
16

App-46
Nevertheless, Appellants argue that Initiative
1501 fails rational-basis review, because it was
motivated by animus towards Appellants and their
opposition to the Unions. Certainly, “a bare desire to
harm a politically unpopular group cannot constitute
a legitimate governmental interest” under the Equal
Protection Clause. Romer v. Evans, 517 U.S. 620, 634
(1996) (alterations adopted) (quoting U.S. Dep’t of Ag.
v. Moreno (Moreno), 413 U.S. 528, 534 (1973)); accord
City of Cleburne, 473 U.S. at 446-47. But where the
affected parties are not members of a “traditionally
suspect class” (i.e., classes defined by race or national
origin), we “may strike down” a challenged law on the
basis of animus only “if the statute serves no
legitimate governmental purpose and if impermissible
animus toward an unpopular group prompted the
statute’s enactment.’” Animal Legal Def. Fund v.
Wasden (Wasden), 878 F.3d 1184, 1200 (9th Cir. 2018)
(quoting Mountain Water Co. v. Mont. Dep’t of Pub.
Serv. Regulation, 919 F.2d 593, 598 (9th Cir. 1990));
accord Gallinger, 898 F.3d at 1021. We have already
found that Initiative 1501 serves legitimate state
interests. That “conclusion, on its own, prevents
[Appellants] from succeeding on their Equal
Protection claim.” Gallinger, 898 F.3d at 1021; see also
Wasden, 878 F.3d at 1200 (upholding a state statute
under the Equal Protection Clause, because, although
it was motivated by animus, it served a legitimate
state interest, and therefore did “not rest exclusively
on an ‘irrational prejudice’” (quoting City of Cleburne,
473 U.S. at 450)).
while holding back . . . others for appeal.” Crawford v. Lungren,
96 F.3d 380, 389 n.6 (9th Cir. 1996).

App-47
That being said, we further reject Appellants’
contention that Initiative 1501 was motivated by
animus. A plaintiff demonstrates animus by showing
“that an ‘invidious discriminatory purpose was a
motivating factor’ in the relevant decision.” Dep’t of
Homeland Sec. v. Regents of the Univ. of Cal., 140 S.
Ct. 1891, 1915 (2020) (quoting Arlington Heights v.
Metro. Hous. Dev. Corp., 429 U.S. 252, 266 (1977)).
“Possible evidence includes disparate impact on a
particular group, ‘departures from the normal
procedural sequence,’ and ‘contemporary statements
by members of the decisionmaking body.’” Id. (quoting
Arlington Heights, 429 U.S. at 266-68). As evidence
that Initiative 1501 was motivated by animus,
Appellants present the Unions’ motivations in
supporting the ballot measure. However, there is no
evidence in the record (and Appellants certainly cite
to none) indicating that the more than 2.2 million
Washington voters who voted in favor of Initiative
1501 were motivated by “an irrational prejudice,” see
City of Cleburne, 473 U.S. at 450, or “a bare desire to
harm” Appellants or their message against the
Unions, see Romer, 517 U.S. at 634 (alteration
adopted) (quoting Moreno, 413 U.S. at 534). We refuse
to impute upon Washington voters the allegedly
invidious motivations of the Unions. Appellants’ claim
of animus is therefore unfounded.
AFFIRMED

App-48
BRESS, Circuit Judge, dissenting:
What if the State of Washington passed a law that
gave the reigning political party access to certain
State-controlled, speech-enabling information, but
denied that information to everyone else? It is hard to
imagine anyone believing such a law would be
constitutional under the First Amendment. So should
it matter if the State enacted the same law, but
instead of giving the information to the incumbent
political party, it gave it to an incumbent public-sector
union that serves as the exclusive bargaining
representative for certain employees paid with public
funds? That is what happened here when Washington
voters enacted I-1501. This ballot initiative gave the
incumbent unions access to critical identifying
information for difficult-to-locate State-paid home
care workers, but disallowed anyone else from
obtaining it through a public records request—
including an organization that sought the information
to contact these State employees and inform them
they had a constitutional right not to pay union dues.
See Janus v. AFSCME, Council 31, 138 S. Ct. 2448
(2018); Harris v. Quinn, 134 S. Ct. 2618 (2014).
The text and operation of I-1501 and a troubling
documentary record demonstrate exactly what is
going on here: transparent viewpoint discrimination.
The State is effectively using an information embargo
to promote the inherently “pro-union” views of the
incumbent unions, while making it vastly more
difficult for those with opposing views—and
particularly those with views opposite unions—to
reach their intended audience. The First Amendment
does not permit this. There are competing

App-49
perspectives in this country about the role and efficacy
of public-sector unions. And in Washington State,
there are divergent views as to whether the incumbent
unions are best serving the in-home care providers
they represent. I-1501 gives government-held
information to persons on only one side of these
important
debates—the
incumbent
unions
themselves—while denying that information to
everyone on the other side. Persons who oppose publicsector unions cannot get the information, nor can
persons who wish to replace the incumbent unions
with a rival union. The State-held information here is
not otherwise available. And the information at issue
is critical: the very means by which each side can
feasibly locate the in-home care providers with whom
they wish to engage in core political speech about
topics of vital concern—including whether publicsector employees should stop paying union fees.
We should have recognized I-1501 for what it is: a
powerful deterrent to the open discourse of ideas that
is the hallmark of a free people. The First Amendment
requires that winners and losers in political debates
win or lose on their own accord, without government
favoritism. Here, the whole point of I-1501 was to
block opposition to public-sector unions, entrench the
incumbent unions, and prevent the exercise of First
Amendment rights that Harris and Janus validated.
That the State’s effort has seemingly worked only
confirms the unacceptable viewpoint discrimination
that is afoot. The State cannot accomplish through a
viewpoint-discriminatory disclosure of governmentcontrolled information what it could never achieve
through a direct restriction on speech. And when the
government stacks the decks in a political debate

App-50
through grossly uneven access to information, courts
should recognize that the free marketplace of ideas
has been unacceptably compromised.
Whatever informational advantage Washington
could properly give an incumbent union over others,
Washington’s extreme approach for in-home care
providers
reflects
impermissible
viewpoint
discrimination. I would have held that I-1501 fails
First Amendment scrutiny. I respectfully dissent.
I
A
I-1501 is a response to recent Supreme Court
decisions recognizing the First Amendment rights of
public-sector employees. To understand how and why
I-1501 came about and the viewpoint discrimination
that was its objective, it is first necessary to
understand underlying developments in First
Amendment law.
In Abood v. Detroit Board of Education, 431 U.S.
209 (1977), the Supreme Court had held that publicsector employees who decline to join a public-sector
union could, consistent with the First Amendment, be
required to pay “agency fees” for that portion of union
dues used for union activities “germane to [the
union’s] duties as [a] collective bargaining
representative.” Id. at 235. The justifications for
allowing these fees to be charged to objecting
employees were the promotion of “labor peace” and
“the risk of ‘free riders.’” Id. at 224.
Over time, Abood was criticized for requiring
public-sector employees to subsidize union activities
with which they disagreed, in asserted violation of the

App-51
First Amendment’s prohibition on compelled speech.
See, e.g., Knox v. SEIU, Local 1000, 567 U.S. 298, 311
(2012). In Harris v. Quinn, 134 S. Ct. 2618 (2014), the
Supreme Court considered whether state-paid home
healthcare workers in Illinois could be required to pay
union agency fees. These persons were not “fullfledged public employees” but were only “deemed to be
public employees solely for the purpose of unionization
and the collection of an agency fee.” Id. at 2627-28.
Harris explained at length how Abood rested on
“questionable foundations.” Id. at 2638. But rather
than overrule Abood, Harris held that Abood’s
rationale did not extend to the quasi-public employees
at issue. Id. Unconstrained by Abood, the Supreme
Court concluded that Illinois’s requirement that statefunded home healthcare workers pay agency fees
violated the First Amendment. Id. 2639-44. Such a
requirement, the Court held, ran afoul of the “bedrock
principle” that “no person in this country may be
compelled to subsidize speech by a third party that he
or she does not wish to support.” Id. at 2644.
Several years later, in Janus v. AFSCME, Council
31, 138 S. Ct. 2448 (2018), the Supreme Court
overruled Abood. The Court explained that “Abood
was poorly reasoned” and failed to account for the
“[f]undamental free speech rights [that] are at stake.”
Id. at 2460. And in a point that has special relevance
to this case for reasons I will explain, the Supreme
Court squarely rejected the theory that the “union
speech paid for by agency fees” concerns only “private”
matters and not ones of “public concern.” Id. at 2474.
Instead, Janus held that union speech in collective
bargaining is “overwhelmingly of substantial public

App-52
concern” because unions speak out on a range of
important political topics, and the wages and benefits
of public employees are themselves a matter of “great
public concern.” Id. at 2475, 2477. It therefore
“violate[d] the free speech of nonmembers [to] compel[]
them to subsidize private speech on matters of
substantial public concern.” Id. at 2460.
B

In Washington, there are two types of in-home
care providers: individual providers, who care for
disabled adults, and family child care providers, who
provide child care for low-income families. Wash. Rev.
Code §§ 41.56.030(7), 74.39A.240(3) (Supp. 2020).
Although hired by private individuals and families,
these care providers receive compensation through
government-funded programs. See id. Washington’s
in-home care providers are thus equivalent to the
workers in Harris: they are treated as public
employees only for purposes of collective bargaining.
Id. §§ 41.56.028(1), 74.39A.270(1) (2013 & Supp.
2020); see also Harris, 134 S. Ct. at 2635.
Washington’s Department of Early Learning (“DEL”)
(now the Department of Children, Youth, and
Families (“DCYF”)) and Department of Social and
Health Services (“DSHS”) administer the State’s
programs for family child care providers and
individual providers.
Uniquely relevant to this case, effectively
communicating with care providers is essentially
impossible without certain State-held information.
Unlike typical public-sector employees, Washington’s
approximately
45,000
care
providers
are
geographically dispersed throughout the State and are

App-53
hard to identify. Most of them do not work in what we
would regard as typical workplaces, as they are often
one family member caring for another in the privacy
of their homes. They could be our neighbors, but we
would have little reason to know they were quasipublic employees. Care providers do not gather in any
centralized location or typically share clients,
supervisors, or any other contacts with one another.
Care providers also experience a high turnover rate of
20% to 40% each year, so contact information quickly
becomes outdated. By statute, Washington care
providers are subject to statewide collective
bargaining representation and are required to be
represented
by
one
exclusive
bargaining
representative. Wash. Rev. Code §§ 41.56.026,
41.56.028(1), (2)(a), (b), 74.39A.270(2)(a) (2012 &
Supp.
2020).
Currently,
Service
Employees
International Union Local 775NW (“SEIU 775”) is the
exclusive bargaining representative for individual
providers, while Service Employees International
Union Local 925 (“SEIU 925”) is the exclusive
bargaining representative for family child care
providers. I will refer to these incumbent unions
collectively as “the Unions.”
If one wants to communicate with Washington’s
in-home care providers, it is first necessary to identify
them. This task is extremely difficult without
information that the State maintains. Specifically,
DCYF and DSHS maintain lists of the identities and
contact information for in-home care providers. The
Unions use these lists regularly to communicate with
care providers through direct mail, email, and door-todoor canvassing. The content of the Unions’
communications bears out the Supreme Court’s

App-54
understanding in Janus that public-sector unions
engage in speech on topics of public concern.
In their written communications to Washington’s
care providers, the Unions have urged care providers
to vote on certain measures related to their
employment, such as ballot initiatives concerning
minimum wage and sick leave. But the Unions have
also encouraged care providers to vote for certain
candidates for public office, including United States
Senator and Governor of Washington. For example,
the Unions urged in-home care providers to vote for
Governor Jay Inslee because, among other things, he
“led the way to implement the Affordable Care Act and
expand Medicaid coverage.” The Unions in
communications to care providers have advocated
other policy positions that are seemingly less related
to collective bargaining. This includes recommending
that care providers vote in favor of gun control
measures and against a proposal that the Unions
described as “giv[ing] huge tax breaks to
corporations.” My point is not to comment on any
position the Unions may wish to take, but to
emphasize that the Unions are communicating with
care providers about matters of substantial public
concern—i.e., core political speech.
Before the passage of I-1501, other persons also
relied on the State-maintained lists, obtained through
public record requests, to communicate with in-home
care providers. Appellant Freedom Foundation is a
non-profit organization that, by its description, “seeks
to advance individual liberty, free enterprise, and
limited, accountable government.” After the Supreme
Court decided Harris, the Foundation created an

App-55
initiative to inform in-home care providers that they
were not required to pay agency fees. The Foundation
claims that “[p]roviders are often grateful to the
Foundation because they were previously unaware
they were unionized, unaware of their rights, and had
unwittingly paid hundreds of dollars to the Unions
each year.” The Foundation used the lists obtained
through public records requests to identify and
communicate with care providers.
Appellant Bradley Boardman is an individual
provider who cares for his disabled sister-in-law. Once
a member of SEIU 775, Boardman left the union due
to its “heavy involvement in partisan politics.” After
Harris, he exercised his right to stop paying union fees
and authored a letter to other individual providers
explaining how they could do the same. Appellants
Sharon Benn and Deborah Thurber are family child
care providers. They stopped paying union fees to
SEIU 925 after Harris and now seek to replace the
union with a different union by triggering an election,
which requires signatures from 30% of their fellow
bargaining unit members. Wash. Rev. Code
§ 41.56.070 (Supp. 2020); Wash. Admin. Code § 39125-110(1) (2009). Benn and Thurber disagree with
how SEIU 925 has represented its constituents.
Thurber explains that SEIU 925 “has not adequately
represented the interests of Childcare Providers.” She
wants a new union installed that “would be fully
voluntary, fight for higher wages and insurance
benefits, and oppose unreasonable regulations.” Both
Benn and Thurber used public records requests to
obtain contact information for their fellow child care
providers and send them information about their
policy positions.

App-56
In 2014, the Freedom Foundation submitted a
records request to DEL and obtained identifying
information for care providers that the Foundation
then used to contact them. The Foundation asserts
that its efforts to educate in-home care providers
about the Supreme Court’s decision in Harris led to a
dramatic drop in union membership. As of January
2017, 63.2% of family child care providers are reported
to have left SEIU 925 post-Harris. As of April 2018,
that number reportedly had climbed to 65.5%.
Alarmed at these developments, the Unions
quickly moved to block them. Between 2014 and 2016,
the Unions repeatedly sued the Freedom Foundation,
Boardman, and Benn to prevent the release of the
information. These lawsuits for the most part failed or
were dismissed, although at least in some instances,
the care provider lists were outdated by the time
Appellants finally received them.
C
With Appellants gaining traction in the courts,
the Unions lobbied the Washington legislature to
make amendments to the Public Records Act. When
those efforts did not pan out, the Unions turned to
Washington’s ballot initiative process. SEIU 775’s
Secretary-Treasurer, Adam Glickman, founded and
chaired a political action committee called “Campaign
to Prevent Fraud and Protect Seniors.” The Unions
formed the Campaign to advocate for I-1501’s
inclusion on Washington’s 2016 ballot. Virtually all
the funding for the ballot initiative (more than $2
million) came from the Unions.
As relevant here, I-1501 amends Washington’s
Public Records Act to bar the release of care providers’

App-57
“sensitive personal information.” Wash. Rev. Code
§ 43.17.410(1)
(2018).
“Sensitive
personal
information” includes care providers’ names,
addresses, and “other personally identifying
information.” Id. § 42.56.640(2)(b). Importantly, the
incumbent Unions were specifically exempted from
these restrictions: the State can provide this
information “to a representative certified or
recognized
under
RCW
41.56.080,”
id.
§ 42.56.645(1)(d), a reference to the “[t]he bargaining
representative which has been determined to
represent a majority of the employees in a bargaining
unit,” id. § 41.56.080 (Supp. 2020). Here, those
bargaining representatives are SEIU 775 and SEIU
925. 1
I-1501 was ostensibly based on protecting inhome care providers and the persons for whom they
care from identity theft and fraud. The “Argument
For” I-1501 in Washington’s 2016 “Voter’s Guide”
State agencies and State contracting parties may also obtain
care providers’ “sensitive personal information.” See Wash. Rev.
Code § 42.56.645(1)(a), (f), (g) (2018). Other provisions allow
targeted disclosures for information about individual in-home
care providers, in some cases providers whose identities the
requestor would already know. See, e.g., id. § 42.56.645(1)(b)
(permitting disclosure of information concerning “individuals
who have been accused of or disciplined for abuse, neglect,
exploitation, abandonment, or other acts involving the
victimization of individuals or other professional misconduct”);
id. § 42.56.645(1)(c) (permitting disclosure when “[t]he
information is being released as part of a judicial or quasi-judicial
proceeding and subject to a court’s order protecting the
confidentiality of the information and allowing it to be used solely
in that proceeding”). There is no suggestion that these various
provisions solve the constitutional problem here, and they do not.
1

App-58
urged passage of I-1501 to prevent “criminals” from
“steal[ing] an identity, causing emotional distress,
devastating personal finances[,] and ruining credit.”
As the district court in this case acknowledged, the
“evidence” supporting these claimed harms is “thin.”
Indeed, the district court went on, one could instead
“rationally infer that the predominate motivating
factor for the Initiative and the Campaign’s support
for the Initiative was animus toward the Freedom
Foundation and outside entities with prerogatives
similar to the Foundation.” As the district court
explained, Appellants’ “most compelling argument
may be that the true, or at least primary motivation of
the Initiative’s drafters and promoters was to restrict
the Foundation’s ability to communicate with
caregivers about their right to withhold financial
support from the unions.”
Extensive record evidence supports the district
court’s observations:
•

•

Literature from the Campaign promoting I1501 stated that “[g]roups like the Freedom
Foundation are threatening unions. They tell
us to stop paying dues—but that would
weaken our unions and rollback what we’ve
won, like raises, health care, retirement, and
paid time off. Initiative 1501 will keep groups
like the Freedom Foundation from getting our
personal information. Vote yes on I-1501 to
keep our unions strong and protect what we’ve
fought for.”
A mass letter to SEIU 775 members ostensibly
from another member, but on SEIU
letterhead, warned that “[t]he Freedom

App-59
Foundation is at it again” and is “bent on
tearing down everything we’ve won.” It
criticized the Freedom Foundation’s “antiunion agenda” and the Foundation’s efforts to
“weaken[] the union we’ve worked so hard to
build.” The letter warned members that with
the Union’s then-recent litigation losses over
the State-held lists, the Foundation may start
contacting them again, but that care providers
should tell the Foundation “NO WAY am I
leaving the union that’s done so much for
caregivers.” The letter concluded: “There’s one
more way you can fight to stop the Freedom
Foundation: When you get your ballot in the
mail, vote YES on I-1501, which protects the
private information of caregivers and our
state’s most vulnerable.”
• In correspondence to a Seattle newspaper,
Adam Glickman, the Campaign’s chairman,
argued in favor of I-1501 because it would
prevent care providers’ information from being
“made available to the Freedom Foundation or
any other advocacy/political/religious group
with an agenda.”
The Unions expressly urged their members to
vote for I-1501 because it would shut down the
Foundation’s advocacy. One SEIU 775 email to
members explained that “[b]y voting Yes [on I-1501]
we protect caregivers in our union from anti-union
bullying of the Freedom Foundation.” Another Union
communication to members stated: “Groups like the
Freedom Foundation are threatening our union. They
tell us to stop paying dues—but that would weaken
our union . . . . A vote for I-1501 is a vote to protect our

App-60
union, ourselves and our clients.” Fuse Vote, an
advocacy organization supported by the Unions,
likewise urged passage of I-1501 to end the
Foundation’s advocacy efforts. It warned that the
“right-wing” Foundation had “been working to acquire
the names and contact information of home health
care workers and child care providers as part of a
deceptive campaign to destroy the unions, and this
initiative would prevent them from acquiring that
private personal data from the state.”
Several internal communications to the office of
Governor Inslee produced in discovery in this case also
indicated that I-1501’s intended objective was to
hinder
anti-union
advocacy.
One
internal
communication from the Governor’s General Counsel
to other staff in the Governor’s office explained that
“[I-1501] ostensibly deals with ID theft, but is aimed
at preventing the state from releasing public records.”
Another internal email from the Governor’s office
reveals that SEIU 775 provided the Governor’s office
with draft remarks to deliver at an SEIU 775 town
hall in support of I-1501. These draft remarks urged
the Governor to say that “[w]hat the Freedom
Foundation is doing is wrong,” that “the Freedom
Foundation is just spreading lies and garbage about
your union,” and that the Governor would “work to
make sure that groups like the Freedom Foundation
do not get access to lists that they are not entitled to.”
This same document contains a draft script for
Adam Glickman, the Campaign’s chairman. In the
script, after a union vice president says that members
should vote for I-1501 because the Freedom
Foundation “is trying to take away everything we’ve

App-61
won,” Glickman’s draft remarks urge passage of I1501 because “the Freedom Foundation has been
aggressively contacting our members, trying to
convince them to give up their union rights.” Notably,
this portion of the agenda is entitled: “1501 and the
Freedom Foundation.”
Several publications took notice of I-1501’s
evident non-privacy objective and urged voters to vote
against the measure. For example, the Seattle Times
Editorial Board cautioned,
Don’t be fooled by I-1501’s pitch to close scary
loopholes and block the release of records that
enable identity theft. . . . Voters should be
aware that I-1501 is the result of a spat
between the powerful Service Employees
International Union and the conservative
Freedom Foundation. They are fighting over
whether the [F]oundation can contact stateemployed care providers to inform them that
they no longer are required to pay union dues
or fees to SEIU, following a U.S. Supreme
Court ruling in 2014.
After I-1501 passed, SEIU 775 sent a
congratulatory email to its members stating that the
new law would “protect[] caregivers from the Freedom
Foundation or other groups getting access to their
personal information.” SEIU 925 similarly sent an
email to its members touting I-1501’s approval,
decrying “extremist groups like the anti-union
Freedom Foundation.”

App-62
I now turn to the legal principles that render I1501 unconstitutional. 2
II
The majority and I agree on how the analysis
must begin: a claim that the State has discriminated
in access to information based on viewpoint is a
cognizable First Amendment theory. Washington’s
argument otherwise is seriously mistaken, and the
court today properly rejects it.
Eight Justices writing separately in Los Angeles
Police Department v. United Reporting Publishing
Corp., 528 U.S. 32 (1999), made clear that the First
Amendment would forbid a State from conditioning
access to government-held information based on
viewpoint. See id. at 42 (Scalia, J., joined by Thomas,
J., concurring); id. at 43 (Ginsburg, J., joined by
O’Connor, Souter, and Breyer, JJ., concurring); id. at
46 (Stevens, J., joined by Kennedy, J., dissenting). As
the Supreme Court later explained, these separate
writings all “recognized that restrictions on the
I agree with the majority that Appellants’ First Amendment
freedom of association claim fails. See Minn. State Bd. for Cmty.
Colls. v. Knight, 465 U.S. 271, 288 (1984) (holding that an
exclusive bargaining arrangement does not restrain members’
“freedom to associate or not to associate with whom they please,
including the exclusive representative”). But see Thompson v.
Marietta Educ. Ass’n, 972 F.3d 809, 814 (6th Cir. 2020)
(explaining how “Knight’s reasoning conflicts with the reasoning
in Janus”). Appellants also purport to bring a freestanding claim
based on the alleged right of in-home care workers to receive
information. My preferred holding that I-1501 reflects viewpoint
discrimination would resolve that claim on its own. The critical
First Amendment issue here, and the one that fits the facts, is I1501’s viewpoint-discriminatory denial of information.
2

App-63
disclosure of government-held information can
facilitate or burden the expression of potential
recipients and so transgress the First Amendment.”
Sorrell v. IMS Health, Inc., 564 U.S. 552, 569 (2011);
see also Fusaro v. Cogan, 930 F.3d 241, 254 (4th Cir.
2019) (“United Reporting provides affirmative support
for a First Amendment challenge to certain types of
conditions being placed on the dissemination of
government information.”).
It is important to see why the First Amendment
permits a claim based on discriminatory access to
government-controlled information. Government
discrimination against speech based on viewpoint is
the highest form of First Amendment offense.
Viewpoint discrimination is “an egregious form of
content discrimination” violating the foundational
principle that “[i]n the realm of private speech or
expression, government regulation may not favor one
speaker over another.” Rosenberger v. Rector and
Visitors of Univ. of Va., 515 U.S. 819, 828-29 (1995). A
State’s complete withholding of information would not
present this issue, because there is no general “First
Amendment guarantee of a right of access to all
sources of information within government control.”
Houchins v. KQED, Inc., 438 U.S. 1, 9 (1978) (plurality
opinion). Washington thus was free not to make care
provider information available to anyone. United
Reporting, 528 U.S. at 40 (citing Houchins, 438 U.S. at
14).
But the government’s selective disclosure of
information is different. Information facilitates
speech. Sorrell, 564 U.S. at 569. Not having
information can burden speech or effectively restrict it

App-64
altogether. Id.; United Reporting, 528 U.S. at 42
(Scalia, J., concurring); id. at 47-48 (Stevens, J.,
dissenting). Because State-held information can be
used to enable speech, a State cannot withhold such
information on a viewpoint-discriminatory basis and
thereby accomplish through a restriction on
information what it could never achieve through a
direct regulation of speech. Sorrell, 564 U.S. at 569.
Imagine, for example, that the government held
certain speech-enabling information and gave it only
to members of one political party. That would
subsidize and promote one party’s views while
muzzling the contrary views of other parties. There is
no sense in which that could be constitutional. See
United Reporting, 528 U.S. at 43 (Ginsburg, J.,
concurring) (“California could not, for example,
release address information only to those whose
political views were in line with the party in power.”).
Although the majority and I agree on the
availability of the First Amendment theory here, we
disagree on whether I-1501 reflects viewpoint
discrimination. In my view, it plainly does. This is a
situation where a law “den[ying] access to persons who
wish to use the information for certain speech
purposes[] is in reality a restriction upon speech” that
violates the First Amendment. Id. at 42 (Scalia, J.,
concurring) (emphasis omitted).
A
To see why this is so, we need to move a few
analytical pieces into place. The first is that I-1501
draws a distinction based on the speaker: it gives the
incumbent Unions unique access to care provider
information. The Supreme Court’s “precedents are

App-65
deeply skeptical of laws that ‘distinguish among
different speakers, allowing speech by some but not
others.’” Nat’l Inst. of Fam. & Life Advocs. v. Becerra,
138 S. Ct. 2361, 2378 (2018) (quoting Citizens United
v. FEC, 558 U.S. 310, 340 (2010)) (alteration in
original omitted). The reason is that “[s]peaker-based
laws run the risk that ‘the State has left unburdened
those speakers whose messages are in accord with its
own views.’” Id. (quoting Sorrell, 564 U.S. at 580); see
also Reed v. Town of Gilbert, 576 U.S. 155, 170 (2015)
(“Speech restrictions based on the identity of the
speaker are all too often simply a means to control
content.” (quoting Citizens United, 558 U.S. at 340)
(alteration omitted).).
I-1501 is not a direct restriction on speech. But it
is a restriction on critical State-held information that
in turn enables speech. See United Reporting, 528 U.S.
at 42 (Scalia, J., concurring); id. at 43 (Ginsburg, J.,
concurring). And in this case, that speech consists of
core First Amendment material—speech on vital
matters of public concern, such as collective
bargaining and candidates for public office. Janus, 138
S. Ct. at 2474-77. The risks that a speaker-based law
creates for free expression are not materially different
when the government engages in a selective disclosure
of State-controlled information that is used for speech
purposes. Sorrell, 564 U.S. at 569. Today’s majority
opinion accepts this same premise.
In this case, the nature of the speaker that is
singled out—public-sector unions—is central. I will
have more to say about the majority’s mistaken
determination that I-1501 fashions a distinction based
merely on the incumbent Unions’ “legal status” as

App-66
exclusive bargaining representatives. But what is
critical to appreciate up front is that unions both have
views and espouse them. The foundation of the
Supreme Court’s decision in Janus was that “unions
express views on a wide range of subjects.” 138 S. Ct.
at 2475. Requiring nonmembers to subsidize publicsector union speech therefore violated the First
Amendment because “[c]ompelling individuals to
mouth support for views they find objectionable
violates th[e] cardinal constitutional command”
against “forc[ing] citizens to confess by word or act
their faith” in particular ideas. Id. at 2463 (quoting W.
Va. Bd. of Educ. v. Barnette, 319 U.S. 624, 642 (1943))
(emphasis omitted). That I-1501 isolates incumbent
Unions for special, preferential treatment is therefore
highly relevant.
The final set piece is I-1501’s distinctive features.
It is a unique law in at least two key respects. The first
is that it gives the incumbent Unions the full range of
State-held information about in-home care providers
but prevents everyone else from obtaining that
information through a public records request. Wash.
Rev. Code §§ 42.56.645(1)(d), 43.17.410(1) (2018). The
“sensitive personal information” that the law protects
from public disclosure (but makes available to the
incumbent Unions) is the care providers’ “names,
addresses, GPS coordinates, telephone numbers,
email addresses, social security numbers, driver’s
license numbers, or other personally identifying
information.” Id. § 42.56.640(2)(b). The incumbent
Unions can get all of this information; for purposes
relevant here, no one else can get any of it. Other
states have enacted laws that give unions who are
exclusive
bargaining
agents
more
modest

App-67
informational advantages over others, as I will discuss
further below. But the parties have not identified any
state with a law like Washington’s, which gives the
incumbent Unions a complete monopoly over the
information, including the very identity of the
employees.
The second unique aspect of I-1501 is that it
involves quasi-public-sector employees who are very
difficult to identify or locate. This point is not
disputed. More traditional public-sector employees are
not hard to find. Teachers, for example, show up to a
school each day. Police officers are based out of a
precinct. In-home care providers are quite different.
They operate in the privacy of homes, often their own.
Their labors can be of a deeply private nature.
The State’s information about the identities and
contact information for in-home care providers is thus
the golden ticket to communicating with them—which
explains the extensive litigation over the State-held
lists and the expensive ballot initiative process that
produced the law before us. Absent the State-held
contact information, it is extremely difficult to locate
the care providers, especially en masse. Indeed, the
entire asserted rationale for I-1501 is to ensure the
privacy of in-home care providers, and, by extension,
those for whom they care. If Washington’s care
providers could be easily identified through other
means, I-1501 and the privacy protection it
supposedly confers would be pointless.
B
With these various pieces in place, the
fundamental problem with I-1501 reveals itself. It is
this: through extreme favoritism as to who may

App-68
receive critical and otherwise unavailable speechenabling information about in-home care providers, I1501’s speaker-based distinction powerfully favors
those views inherent to incumbent unions while
creating significant obstacles to speech for anyone
with opposing views. The information disparity that I1501 creates in the First Amendment’s political
speech heartland is so severe that the inference of
viewpoint discrimination is inescapable.
Whatever differing views unions may have among
themselves on some issues, unions—and especially
incumbent unions—have an obvious, intrinsic view on
whether unions should be disempowered: they
understandably disagree with that position. Unions
are, in other words, “pro-union.” The issue is one of
great public significance. Some people wish to promote
the activities of public-sector unions and believe they
are vitally important to American society. Others
dislike the work of public-sector unions and believe,
for various reasons, that these unions do more harm
than good. The passions on both sides of this issue are
well known. I-1501 gives critical State-controlled
information to powerful actors on only one side of this
important public debate, while denying everyone on
the other side the same information.
It does not matter to the constitutional analysis
that under I-1501, other persons or groups who may
also be “pro-union” cannot get the same State-held
information as the incumbent Unions. The reason is
that by giving the information to the incumbent
Unions only, I-1501 promotes only one side of an
overall debate, favoring a positive view of unions while
imposing a significant burden on everyone who wishes

App-69
to promote an opposing perspective. “The First
Amendment forbids the government to regulate
speech in ways that favor some viewpoints or ideas at
the expense of others.” Matal v. Tam, 137 S. Ct. 1744,
1757 (2017) (quoting Lamb’s Chapel v. Ctr. Moriches
Union Free Sch. Dist., 508 U.S. 384, 394 (1993))
(internal quotation marks and alteration omitted).
That is what Washington is doing here, except
through the discriminatory denial of the critical
information that enables speech rather than through
a prohibition on the core political speech that the
State-held information later facilitates. This selective
release of information violates the First Amendment
no less. Sorrell, 564 U.S. at 569; United Reporting, 528
U.S. at 42 (Scalia, J., concurring); id. at 43 (Ginsburg,
J., concurring).
That I-1501 gives total access to incumbent
unions while denying all access to rival ones, like the
one Benn and Thurber support, makes the viewpoint
discrimination even more conspicuous. Incumbents
seek to promote incumbency; those with power wish to
retain it. John Hart Ely, Democracy and Distrust: A
Theory of Judicial Review 106 (1980). An incumbent
union has a natural and entirely expected view on the
question whether the union is properly serving the
interests of the represented workers: the incumbent
believes it should continue in the role. Persons seeking
to promote a rival union, by contrast, strongly
disagree. In this case, Benn and Thurber have various
policy disagreements with an incumbent Union and
would like to see it replaced. By discriminating among
different unions through the sharply unequal
disclosure of information vital for effective
communication, the State necessarily subsidizes the

App-70
incumbent Unions and, with it, those Unions’
viewpoint that they should stay in power. See, e.g.,
NLRB v. Magnavox Co. of Tenn., 415 U.S. 322, 325
(1974) (“[I]t is difficult to assume that the incumbent
union has no self-interest of its own to serve by
perpetuating
itself
as
the
bargaining
representative.”).
It is, once again, no answer to say that persons
who believe the incumbent Unions are doing a fine
enough job also cannot get the State-held information
under I-1501. The problem here is the same one we
observed with “pro-union” and “anti-union” groups,
except another level down. See Rosenberger, 515 U.S.
at 831-32 (“[T]hat debate is not skewed so long as
multiple voices are silenced is simply wrong . . . .”). In
the intensely political debate about whether an
incumbent union should stay in power, Washington
provides valuable State-held information to one side of
this debate—represented by the incumbent Union
itself—and everyone with a different view of the
incumbent Union gets nothing. By conferring on the
incumbent Unions a powerful information advantage,
the State is necessarily promoting the view that the
incumbent Unions should stay in power.
The majority nonetheless holds that I-1501
“den[ies] access to Provider Information irrespective of
a requester’s views, ideology, or message on any
particular subject.” That is not the right way to look at
this. Given the absolute bar on public records
requests, the only relevant entities who can obtain the
information are the incumbent Unions. Wash. Rev.
Code § 42.56.645(1)(d) (2018). And the only entities
that are incumbent unions are ones who have (1) a

App-71
certain “pro-union” view of unions and (2) a positive
view as to whether the incumbent union should
remain in power. Nobody who has an “anti-union”
view can get the information. Nor can anyone who
opposes the incumbent union. The viewpoint
discrimination built into I-1501 is patent.
Treating I-1501 as “facially neutral,” as the
majority does, fails to appreciate I-1501’s obvious
design. The First Amendment disallows government
regulation “that is in reality a facade for viewpointbased discrimination.” Cornelius v. NAACP Legal Def.
& Educ. Fund, Inc., 473 U.S. 788, 811 (1985). If I-1501
had stated on its face that no in-home care provider
information would be available to (1) anyone who
opposed public-sector unions and (2) anyone who
sought to oppose the incumbent Unions in an election,
nobody would regard this as “facially neutral.” See
Rosenberger, 515 U.S. at 828-29. Washington has
accomplished the same result through the expedient
(or subterfuge) of granting exclusive access to critical
information to the incumbent Unions, which those
Unions then use to engage in core political speech with
in-home care workers, including speech that promotes
the Unions themselves.
What we have here is thus not “facial neutrality,”
but a statutory framework that promotes one set of
pro-union and pro-incumbent union views over others
in the First Amendment’s most hallowed ground of
core political speech. It is therefore too simple to
maintain, as the majority does, that “the Unions
happen to hold certain viewpoints and also happen to
receive” certain benefits under I-1501. Nothing about
I-1501 turns on mere happenstance. The powerful,

App-72
built-in informational advantage given to the
incumbent Unions is so extreme as to warrant the
inference of impermissible viewpoint discrimination.
United Reporting, 528 U.S. at 42 (Scalia, J.,
concurring); id. at 43 (Ginsburg, J., concurring).
The majority’s repeated characterization of I-1501
as a “subsidy” thus obscures what is at stake here. I1501 can hardly be equated with a traditional subsidy
like a tax benefit. See Regan v. Tax’n with
Representation of Wash., 461 U.S. 540 (1983). Instead,
and through the discriminatory non-disclosure of
critical, speech-enabling information that is not
otherwise readily available, I-1501 confers an
enormous advantage to incumbent unions who
necessarily hold views intrinsic to such organizations.
I-1501 is much more than a mere subsidy: it is the key
to the incumbent Unions’ ability to communicate with
in-home care providers, and the barrier that prevents
anti-union groups and rival unions from doing so
effectively. I-1501 is a direct limitation on (and
promotion of) expression in a way that a bare financial
subsidy is not. Even so, the majority agrees that a
subsidy cannot be awarded “based on an illegitimate
criterion such as viewpoint.” United Reporting, 528
U.S. at 43 (Ginsburg, J., concurring) (citing Regan,
461 U.S. at 540). Because I-1501 operates in that
manner, the majority’s characterization of I-1501 as a
subsidy is ultimately irrelevant.
C
The majority concludes there is no viewpoint
discrimination here because, in its view, “the Unions’
current access to Provider Information is based
entirely on their legal status as certified exclusive

App-73
bargaining representatives under Washington law.”
This is mistaken, and it is a mistake with serious First
Amendment consequences.
“Legal status” is merely a label that a law creates.
To know whether a distinction based on “status”
reflects viewpoint discrimination, one needs to know
more about the nature of the “status” and its origins.
Imagine a law providing that information could only
be given to the political party that had achieved the
“status” of winning the election. Such a law would
plainly discriminate based on viewpoint. See United
Reporting, 528 U.S. at 43 (Ginsburg, J., concurring).
The reason is that by its very nature, a speaker-based
law that turned on political affiliation would have an
obvious valence to viewpoint.
Take as another example a contractor who won a
government project through a competitive bid process.
A law that gave this contractor state-held information
based on its “status” as the bid-winner might seem
neutral. But what if we learned that the bid process
involved consideration of the contractors’ political
views so that only contractors with a particular view
on a political issue could secure the work? At that
point, a “status” that initially seemed innocuous would
raise a serious inference of viewpoint discrimination.
To say that the law here distinguishes based on “legal
status,” as the majority does, is only to ask the
viewpoint discrimination question, not to answer it.
In this case, given I-1501’s distinctive features,
the “status” of being an incumbent public-sector union
cannot be divorced from the reality that public-sector
unions’ speech reflects political viewpoints, including
about unions themselves. This was the basis for

App-74
Janus’s holding that it violated the First Amendment
to require nonmembers to subsidize public-sector
union speech. Janus leaves no doubt on this point.
There, the Supreme Court considered whether publicsector union speech could be analogized to speech on
matters of “private concern,” so that the speech publicsector workers were required to fund through agency
fees was more analogous to speech that “forms part of
the official duties of the union officers who engage in
speech.” Janus, 138 S. Ct. at 2474.
The Supreme Court squarely rejected this
sanitized view of union speech. It held that “union
speech in collective bargaining, including speech
about wages and benefits,” is “‘a matter of great public
concern.’” Id. (quoting Harris, 134 S. Ct. at 2642-43).
Moreover, unions “speak out in collective bargaining
on controversial subjects such as climate change, the
Confederacy, sexual orientation and gender identity,
evolution, and minority religions,” topics that are
“sensitive political topics” and “undoubtedly matters
of profound value and concern to the public.” Id. at
2476 (internal quotation marks and footnotes
omitted).
Based on this conception of “what actually occurs
in public-sector collective bargaining,” id., it cannot be
maintained that a law that gives otherwise
unavailable information to incumbent public-sector
unions and no one else turns merely on a formal “legal
status” untethered to any viewpoints. Unions have
views on topics of public concern, which include—
critically—the claimed benefits of unions themselves
and the claimed benefits of one union over another. All
of this explains why, under Janus, an objecting

App-75
nonmember cannot be compelled to fund union speech
under the First Amendment. If what matters to the
analysis is solely the State-created “status” of being an
exclusive bargaining agent, Janus should have come
out the other way. And if the State had enacted a
direct restriction of speech premised on the incumbent
Unions’ State-created “status,” I am hard-pressed to
see how anyone would regard the law as insulated
from searching First Amendment review.
For its “legal status” theory, the majority relies
almost exclusively on Perry Education Ass’n v. Perry
Local Educators’ Ass’n, 460 U.S. 37 (1983). But Perry
is not a safe haven for I-1501’s clear viewpoint
discrimination. In Perry, a public-sector collective
bargaining agreement allowed an incumbent teacher’s
union access to an interschool mail system and teacher
mailboxes but largely denied rival unions the same
access. Id. at 39. A rival union sued, claiming that this
differential
access
constituted
impermissible
viewpoint discrimination in violation of the First
Amendment. Id. at 48-49. The Court disagreed. It
noted (among other things) that on the record before
it, there was “no indication that the School Board
intended to discourage one viewpoint and advance
another,” so that “it is more accurate to characterize
the access policy as based on the status of the
respective unions rather than their views.” Id. at 49.
Perry, decided in 1983, sits uncomfortably with
the Supreme Court’s modern jurisprudence
concerning public-sector unions. Among other things,
Perry relied on Abood, concluding that the “exclusion
of the rival union may reasonably be considered a
means of insuring labor peace within the schools.”

App-76
Perry, 460 U.S. at 52. But Janus overruled Abood and
specifically rejected Abood’s “labor peace” rationale.
Janus, 138 S. Ct. at 2466. As Janus explained, “Abood
cited no evidence that the pandemonium it imagined
would result if agency fees were not allowed, and it is
now clear that Abood’s fears were unfounded.” Id. at
2465. Perry’s Abood-based foundations are now in
serious question. Perry of course remains binding on
us, regardless of its evident tension with Janus. But
Perry does not save I-1501, for four main reasons.
First, Perry presented a fundamentally different
First Amendment question because it concerned
access to physical government property, not access to
government-held information. Central to Perry was
the Supreme Court’s determination that the school
mail system and mailboxes were neither public
property that is traditionally open for expressive
activity nor a so-called “limited public forum”—First
Amendment parlance for public property that “the
State has opened for use by the public as a place for
expressive activity.” Perry, 460 U.S. at 45-46. Because
the school mail system was a “nonpublic forum,” the
state had “the right to make distinctions in access on
the basis of subject matter and speaker identity.” Id.
at 49.
As the Supreme Court later explained, Perry was
a case about a claimed “right of access to government
property for use in speaking to potentially willing
listeners.” Minn. State Bd. for Cmty. Colls. v. Knight,
465 U.S. 271, 282 (1984). While the State claims the
mantle of Perry in this case, it nonetheless concedes in
its briefing in this court that “[u]nlike the present
case, the [Perry] decision primarily involved an

App-77
analysis as to what extent a public school’s mailbox
system was a public forum,” and “[a] forum analysis is
not relevant here, where the issue is access to
government information.”
There are plainly different considerations at stake
in the context of a request for access to government
property that, as in Perry, the government does not
otherwise open to everyone for expressive purposes.
Perry was concerned with “prevent[ing] the District’s
schools from becoming a battlefield for inter-union
squabbles.” 460 U.S. at 52. One can imagine various
examples of outside groups trying to gain physical
access to locations where public-sector employees
work, which could prove highly disruptive. There may
thus be valid reasons for limiting such access to
certain groups, so that it could be permissible in some
circumstances to allow access to a union that is the
exclusive bargaining agent but to exclude others.
These reasons simply do not apply in this case, which
involves a request for access to information and does
not present the same burdens for the government.
Second, in upholding the policy limiting mail
system access to the incumbent union, Perry
repeatedly made clear that no evidence of viewpoint
discrimination was to be found. This was central to the
Court’s result. In Perry, there was “no indication that
the School Board intended to discourage one viewpoint
and advance another.” 460 U.S. at 49. Later, when
responding to Justice Brennan’s dissent, the Court
again emphasized that “there is no indication in the
record that the policy was motivated by a desire to
suppress [the rival union’s] views.” Id. at 50 n.9. The
same cannot be said here, given the extreme

App-78
information disparity inherent in I-1501’s basic design
and the extensive evidence showing that an objective
of I-1501—if not the objective—was to stop anti-union
organizations from disseminating an anti-union
message to care providers.
Third, Perry upheld the school mail system policy
as “reasonable[]” based on “the substantial alternative
channels that remain[ed] open for union-teacher
communication to take place.” 460 U.S. at 53. The
teachers worked in school buildings, and the rival
union still retained access to school “bulletin boards”
and “meeting facilities” and could (with a principal’s
approval) “make announcements on the public
address system.” Id. at 41, 53. Critically, there was “no
showing [t]here that [the rival union’s] ability to
communicate with teachers [was] seriously impinged
by the restricted access to the internal mail system.”
Id. at 53.
This case is completely different. There are no
“substantial alternative channels” to reach in-home
care providers in Washington. Id. It is undisputed that
there are approximately 45,000 care providers who
work in private homes throughout the State, so that
“the only meaningful and practical way to
communicate with Providers is through using public
records.” The high turnover rate among care providers
only adds to the communication problem. Unlike the
teachers in Perry who worked in one of thirteen
schools in a single Indiana township, 460 U.S. at 39,
Appellants here cannot easily know where the inhome care providers work or even who they are. And
if it were the case that care providers could be readily
located and contacted, then the entire privacy-based

App-79
rationale that supposedly justifies I-1501 would
collapse.
Finally, there is one last key difference between
the mailbox access restriction in Perry and I-1501:
Perry’s preferential access policy did not apply during
periods of union elections, when rival unions are vying
to be the exclusive bargaining agent. See Perry, 460
U.S. at 41 (“[U]nder Indiana law, the preferential
access of the bargaining agent may continue only
while its status as exclusive representative is
insulated from challenge. While a representation
contest is in progress, unions must be afforded equal
access to such communication facilities.”) (citation
omitted); id. at 53 (“During election periods, [the rival
union] is assured of equal access to all modes of
communication.”). In fact, this was one of the factors
the Court cited in affirming “the reasonableness of the
limitations” that Indiana law imposed. Id.
I-1501 once again differs considerably. At no point
in the union electoral process can rival unions obtain
care provider identifying information. As noted above,
to trigger an election and displace the incumbent
bargaining representative, a proponent must submit a
representation petition supported by 30% or more of
the care providers in the bargaining unit. See Wash.
Rev. Code § 41.56.070 (Supp. 2020). Benn and
Thurber explain that “[w]ithout a current list of
Childcare Providers, it will be impossible for us to get
30% of Childcare Providers to sign cards signifying an
interest to hold a new election.” Unlike in Perry, I1501 creates no window in the overall electoral process

App-80
during which rival unions may gain access to care
provider lists. 3
In light of all of this, it is quite difficult to credit
the
majority’s
“example”
that
supposedly
“demonstrate[s] the propriety” of I-1501. The majority
reasons that I-1501 does not discriminate based on
viewpoint because if Appellants succeed in replacing
the incumbent Unions with rival unions, then those
rival unions would secure the “legal status” entitling
them to the care provider contact information on an
exclusive basis. But what the majority overlooks is
that I-1501 is designed to make it as difficult as
possible for that transfer of power to ever happen.
By denying rival unions critical State-held
information, Washington law ensures that incumbent
Unions have easy access to the care providers who vote
in union elections, while simultaneously making it
extremely difficult for rival unions to have the same
communications. As compared to the incumbent
Unions, rival unions must compete in a Kafkaesque
election process where they cannot easily identify who
the voters even are or how they can be contacted. And
if it were really that easy for rival unions to win an
The majority contends that Perry’s reliance on the
“substantial
alternative
channels”
for
union-teacher
communications and the rival unions’ access to the mail system
during union elections reflected considerations unique to a public
forum analysis. But I read Perry as stressing these points as part
of showing overall why the Indiana law at issue was not
viewpoint discriminatory. And if the majority is correct that
Perry’s analysis on these two points was instead limited to the
nonpublic fora context, that only further underscores my point
that this case presents a very different First Amendment
question than Perry.
3

App-81
election in this rigged regime, would the incumbent
Unions have spent so much time and money securing
the passage of I-1501, only for it to be used against
them?
I do not think the First Amendment either allows
or requires us to ignore the obvious political realities
of I-1501’s basic design. That law’s extreme incumbent
advantage—and the viewpoint discrimination it
necessarily reflects—cannot be regarded as a
“neutral” law.
D
The highly troubling documentary record in this
case also demonstrates that the majority’s narrow
focus on the incumbent Unions’ “legal status” is
artificial. See Sorrell, 564 U.S. at 563-64 (observing
that “[o]n its face, Vermont’s law enacts content- and
speaker-based restrictions,” and then noting that
“[a]ny doubt . . . is dispelled by the record and by
formal legislative findings”). The documentary record
is not necessary to my analysis because I-1501’s text
and operation more than sufficiently demonstrate
viewpoint discrimination. But the record evidence is
certainly corroborative on that point, and it should be
cause for serious concern.
I-1501 arose from warring viewpoints about the
incumbent Unions. After the Freedom Foundation
successfully used State-provided lists to persuade
many in-home care providers to stop paying union
dues in the wake of Harris, the Unions sued the
Foundation and even Benn in her personal capacity to
stop them from obtaining the information. When that
failed, the Unions pursued a ballot initiative process
and made public and private statements,

App-82
demonstrating that the obvious motivation behind I1501 was to silence anti-union voices and entrench in
office the incumbent Unions. There is no real dispute
that this plan has worked as planned, as Appellants
face serious impediments in identifying in-home care
providers and promoting their contrary views. For
example, there is evidence in the record that as of
January 2017—by which point the Unions’ litigation
tactics and I-1501 had successfully prevented the
Foundation from obtaining up-to-date lists of
individual providers—11% of individual providers had
left SEIU 775. Compare this to over 60% of family
child care providers leaving SEIU 925 between July
2014 and January 2017.
Government efforts to engage in viewpoint
discrimination are usually better concealed. In this
case, and strikingly, the viewpoint discrimination
motivating I-1501 was not just poorly hidden, it was
actually touted as a principal selling point of the law.
The Union-driven Campaign supporting I-1501
prepared materials explicitly urging voters to support
I-1501 because “[g]roups like the Freedom Foundation
are threatening unions” and “threatening our union.”
SEIU 775 urged its members to vote for I-1501 “to stop
the Freedom Foundation” and its “anti-union agenda.”
For a town hall supporting I-1501, SEIU 775’s draft
remarks called for Washington’s Governor (whose
candidacy the Unions actively supported) to urge
passage of I-1501 because “[w]hat the Freedom
Foundation is doing is wrong.” And there are many
other examples of similar statements in the record.
The Unions and their supporters are of course entitled
to their views about the Freedom Foundation. But

App-83
operationalizing those views through the coercive
force of law is an affront to First Amendment ideals.
The majority’s apparent response is that “there is
no evidence in the record . . . indicating that the more
than 2.2 million Washington voters who voted in favor
of Initiative 1501 were motivated by an irrational
prejudice.” But ballot initiatives have been
invalidated on First Amendment grounds, see, e.g.,
Cal. Democratic Party v. Jones, 530 U.S. 567, 570, 586
(2000); Citizens Against Rent Control/Coal. for Fair
Housing v. City of Berkeley, 454 U.S. 290, 292, 300
(1981); Mont. Chamber of Com. v. Argenbright, 226
F.3d 1049, 1052, 1058 (9th Cir. 2000), without any
suggestion that courts or litigants were somehow
required to probe the hearts of the millions of persons
who enacted a viewpoint discriminatory law to
confirm they had nefarious anti-speech intent. In any
event, that I-1501 was passed as a ballot proposition
is beside the point. As the Supreme Court has
explained, “[i]t is irrelevant that the voters rather
than a legislative body enacted [the challenged law],
because the voters may no more violate the
Constitution by enacting a ballot measure than a
legislative body may do so by enacting legislation.”
Citizens Against Rent Control, 454 U.S. at 295.
The issue here is decidedly not the good faith of
the Washington voters who enacted I-1501. The
casebooks are full of decisions rejecting under the
First Amendment potentially well-meaning efforts to
restrict speech that was regarded as contrary to
shared values. See, e.g., R.A.V. v. City of St. Paul, 505
U.S. 377, 396 (1992); Texas v. Johnson, 491 U.S. 397,
420 (1989); Nat’l Socialist Party of Am. v. Village of

App-84
Skokie, 432 U.S. 43, 44 (1977) (per curiam). Whether
Washington’s voters believed in I-1501’s privacybased rationales or thought that anti-union forces
should be disempowered, or both, the result is the
same: I-1501, through its text and operation,
discriminates based on viewpoint.
III
“Discrimination against speech because of its
message is presumed to be unconstitutional.”
Rosenberger, 515 U.S. at 828. As a result, laws
reflecting viewpoint discrimination, such as I-1501,
must be subject to strict scrutiny, the highest level of
First Amendment review. Reed, 576 U.S. at 170; First
Resort, Inc. v. Herrera, 860 F.3d 1263, 1277 (9th Cir.
2017).
To withstand strict scrutiny, I-1501 must be
“narrowly tailored to serve compelling state interests,”
Reed, 576 U.S. at 163, and “the least restrictive means
of achieving” those interests, McCullen v. Coakley, 573
U.S. 464, 478 (2014). The burden is on the State to
make this showing. See Ark. Writers’ Project, Inc. v.
Ragland, 481 U.S. 221, 231 (1987). “If a less restrictive
alternative would serve the state’s compelling interest
with the same level of effectiveness, the state must use
that alternative.” Victory Processing, LLC v. Fox, 937
F.3d 1218, 1228 (9th Cir. 2019). “Furthermore, when
the plaintiff offers ‘a plausible, less restrictive
alternative . . . , it is the Government’s obligation to
prove that the alternative will be ineffective to achieve
its goals.’” Id. (quoting United States v. Playboy Ent.
Grp., Inc., 529 U.S. 803, 816 (2000)). “To meet this
burden, the state must provide ‘more than anecdote
and supposition;’ it must point to evidence in the

App-85
legislative record or present other evidence that
demonstrates why the challenged restriction, rather
than a less restrictive alternative, is necessary to
further its significant interests.” Id. (quoting Playboy
Ent. Grp., 529 U.S. at 822).
I-1501 fails strict scrutiny. Assuming that
protecting the privacy of in-home care providers and
the persons they support is a compelling state interest,
I-1501 is not narrowly tailored toward that objective.
As an initial matter, there is scant evidence as to how
restricting access to the names of in-home care
providers will protect either them or the vulnerable
persons for whom they care from identity theft. The
State has not brought forward any evidence that
previous public records requests of care providers’
identities have led to identity theft. As the State
Director of AARP Washington (which declined to
endorse I-1501) explained, identity thieves “do not fill
out public records requests to get their victims. That’s
not how it works.” Indeed, the district court below
itself noted that the evidence of identity theft “is thin,”
and “[t]he Initiative does not explicitly articulate how
withholding caregiver identities will protect
vulnerable individuals.”
The State also fails to show that I-1501 is the least
restrictive means for achieving its stated goals. See
Victory Processing, 937 F.3d at 1228. Among other
things, the State has not explained why, to avoid
identity theft, it needs to prevent the disclosure of all
identifying information of in-home care providers, as
opposed to merely some of it. The State also has not
explained why it could not protect against identity
theft by allowing some greater disclosure of care

App-86
provider information while instituting some
confidentiality restrictions surrounding its receipt. To
this point, the incumbent Unions, State agencies, and
State contracting parties are given complete access to
care provider information, with “the recipient
agree[ing] to protect the confidentiality of the
information.” Wash. Rev. Code § 42.56.645(1)(a), (d),
(f)-(g) (2018). If that protection is sufficient to protect
privacy interests, including when the information is
given to the incumbent Unions, it is unclear why this
would not be sufficient for Appellants as well. By
failing to explain why less-restrictive alternatives
“will be ineffective to achieve its goals,” Victory
Processing, 937 F.3d at 1228, the State fails to carry
its burden.
Comparing I-1501 to the laws of other states
confirms it is not narrowly tailored. While some states
have laws that give incumbent unions some
informational advantages when it comes to the
identities and contact information of the worker class,
the parties have not identified a state law that is
nearly as extreme as Washington’s. The State has
cited laws from Illinois, Maryland, Wisconsin, and
California. But in the examples of Illinois, Maryland,
and Wisconsin, and as the State here does not dispute,
the statutes give incumbent unions exclusive access to
public-sector workers’ contact information, but not the
workers’ names, which is the whole ballgame. See 5 Ill.
Comp. Stat. §§ 140/7(1)(b), 315/3(n), (o), 315/6(c)
(West, Westlaw through P.A. 101-651) (prohibiting
disclosure of public employees’ “[p]rivate information”
but requiring such information to be provided to
incumbent unions); id. §§ 140/2(c-5), 315/6(c-5)
(omitting employee names from the definition of

App-87
“private information” and related non-disclosure
provisions); Md. Code Ann., State Pers. & Pens. § 3208 (West, Westlaw through legislation effective July
1, 2020) (mandating that public employees’ names and
contact
information
be
disclosed
to
their
representative unions); Md. Code Ann., Gen. Prov. § 4331 (prohibiting public disclosure of employees’ home
addresses or phone numbers, but not names); Wis.
Stat. Ann. § 19.36(10)(a) (West, Westlaw through
2019 Act 186) (omitting names from the list of
information to which incumbent unions have exclusive
access); see also 19 Or. Rev. Stat. §§ 192.355(3),
243.804(4)(a) (2019) (requiring public agencies to
provide public employees’ contact information to
incumbent unions but omitting from other nondisclosure rules the names of public employees). On
their face, these statutes allow rival unions and other
groups to at least identify who the employees are, so
that they may be located by other means.
An Illinois statutory provision referenced in
Janus was likewise much more narrowly tailored than
I-1501. In Janus, the Supreme Court noted that
“[e]ven without agency fees, designation as the
exclusive representative confers many benefits,”
including “obtaining information about employees.”
138 S. Ct. at 2467 (citing 5 Ill. Comp. Stat. 315/6(c)
(West 2016)). But the Illinois statute that Janus cited
at the time only required public employers upon
request to “furnish the exclusive bargaining
representative with a complete list of the names and
addresses of the public employees in the bargaining
unit.” 5 Ill. Comp. Stat. 315/6(c). Nothing in this
statute purported to preclude other entities from
obtaining public employees’ names through other

App-88
means, such as public records requests. And while
Illinois changed its law post-Janus (an evident
reaction to Janus), the new law, as noted above, on its
face does not prohibit disclosure of public-sector
employees’ names. See 5 Ill. Comp. Stat. § 315/6(c-5). 4
Washington also points to California law. But
while California bars from public release both the
names and the contact information of in-home care
providers, it does make this information available to
“any labor organization seeking representation
rights.” Cal. Gov. Code Ann. § 6253.2(b) (West 2019).
That is a critical difference compared to I-1501.
Washington does not dispute that under California
law, Benn and Thurber’s rival union could obtain the
information, which they cannot do under Washington
law. In fact, under California law, rival unions can
even obtain workers’ cell phone numbers and personal
email addresses. Id. I provide these examples from
California and other states not to suggest they are
necessarily immune from constitutional challenge, but
to show that by comparison, Washington’s law is an
outlier. Other states’ laws show that Washington
could have more narrowly tailored I-1501 in
furthering any supposed privacy interest.

Washington argues here that Janus’s reference to the Illinois
provision implies that I-1501 is constitutional. Given the
significant differences between I-1501 and Illinois law (as it
existed at the time of Janus), the State’s position is not tenable.
Indeed, it is somewhat remarkable for Washington to claim that
Janus somehow provides support for I-1501 when I-1501 reflects
an obvious effort to make an end-run around Janus by preventing
in-home care providers from knowing they have a Harris/Janus
right not to pay union agency fees.
4

App-89
I imagine there could be laws that give incumbent
unions a somewhat greater informational advantage
over others, but which pass constitutional muster
because the more modest information disparity does
not raise such an obvious inference of viewpoint
discrimination. But here, I-1501 gives the incumbent
Unions all the identifying information, and anti-union
groups and rival unions get none of it. I-1501 thus
maximizes to the greatest extent the incumbent
Unions’ ability to convey viewpoints inherent to
incumbent unions. And it does so in the context of a
population of public-sector workers who cannot be
easily identified otherwise given the unique nature of
their work. This whole regime is designed to promote
pro-union views and stem the tide of workers leaving
the unions in the wake of Harris and Janus.
In my view, these distinctive features cause I1501 to fail First Amendment scrutiny and thereby
violate Appellants’ fundamental rights under the
Equal Protection Clause. See OSU Student Alliance v.
Ray, 699 F.3d 1053, 1067 (9th Cir. 2012) (“The equal
protection claims rise and fall with the First
Amendment claims.”). Because the court does not
vindicate Appellants’ constitutional rights, I
respectfully dissent.

App-90
Appendix B
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF WASHINGTON
________________
No. C17-5255
________________
BRADLEY BOARDMAN, et al.,
v.

Plaintiffs,

JAY R. INSLEE, et al.,
and

Defendants,

CAMPAIGN TO PREVENT FRAUD AND PROTECT SENIORS,
Defendant-Intervenors.
________________
Filed: Jan. 10, 2019
________________
ORDER GRANTING DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT, INTERVENORDEFENDANT’S MOTION FOR SUMMARY
JUDGMENT, AND DENYING PLAINTIFFS’
MOTION FOR SUMMARY JUDGMENT
________________
This matter comes before the Court on
Defendants Governor Jay R. Inslee, Patricia Lashway,
Director of the Washington Department of Social and
Health Services (“DSHS”), and Ross Hunter, Director
of the Washington Department of Early Learning’s
(“DEL”) (collectively “State”) motion for summary

App-91
judgment, Dkt. 47, Defendant-Intervenors the
Campaign to Prevent Fraud and Protect Seniors’s
(“Campaign”) motion for summary judgment, Dkt. 48,
and Plaintiffs Bradley Boardman (“Boardman”),
Deborah Thurber (“Thurber”), Shannon Benn
(“Benn”), and Freedom Foundation’s (“Freedom
Foundation” or “the Foundation”) (collectively
“Plaintiffs”) cross-motion for summary judgment,
Dkt. 50. The Court has considered the pleadings filed
in support of and in opposition to the motions and the
remainder of the file and hereby rules as follows:
I.

PROCEDURAL HISTORY AND FACTUAL
BACKGROUND

On June 30, 2014, the Supreme Court decided
Harris v. Quinn, 134 S. Ct. 2618 (2014). Harris, in
Plaintiffs’ framing, held that in-home caregivers who
are paid through the Medicaid program to provide inhome care for adults and children (“caregivers”) “could
not be forced to belong to or otherwise financially
support a union because it violated their First
Amendment rights.” Dkt. 50 at 7. Plaintiffs explain
that their interest in contacting caregivers in
Washington arose “[i]mmediately after Harris was
issued in 2014.” Dkt. 50 at 7. On July 2, 2014, two days
after the decision, the Freedom Foundation submitted
public records requests to DSHS and DEL, seeking a
list of caregivers from each. Dkt. 50 at 12 (citing Dkt.
6, Declaration of Maxford Nelson (“Nelson Decl.”), at
3-4). DEL provided the requested list, and “[f]or over
two and a half years, the Foundation has been using
this list to reach Childcare Providers and informing
them of their right to leave the union.” Nelson Decl. at
4. DSHS “determined that the names of [caregivers]

App-92
were disclosable information” but, according to
Plaintiffs, “delayed disclosure long enough to allow
SEIU 775 to sue [DSHS] and the Foundation to
prevent disclosure of the records.” Id. at 4. 1 Though
the suit was ultimately unsuccessful, the state trial
court granted a temporary restraining order
preventing disclosure and kept it in place until the
appeal was resolved in 2016 in favor of the
Foundation. Dkt. 50 at 12. Additional disputes over
public records requests followed. Dkt. 50 at 12.
Washington voters enacted Washington State
Initiative 1501 (“the Initiative”) in the 2016 general
election. Dkt. 47 at 4. The Initiative’s text described
its intent to:
protect the safety and security of seniors and
vulnerable individuals by (1) increasing
criminal penalties for identity theft targeting
seniors
and
vulnerable
individuals;
(2) increasing penalties for consumer fraud
targeting seniors and vulnerable individuals;
and (3) prohibiting the release of certain
public records that could facilitate identity
theft and other financial crimes against
seniors and vulnerable individuals.
Dkt. 47-1 at 5, Text of the Initiative. Plaintiffs
challenge Part Three of the Initiative, which amended
Washington’s Public Records Act, RCW Chapter 42.56
(“PRA”). The PRA provides for broad public access to
state records, see WAC 44-14-01003, but state statutes
1 Two chapters of the Service Employees International Union
(“SEIU”) represent caregivers in Washington State: SEIU 775
and SEIU 925. Dkt. 50 at 7.

App-93
have also created hundreds of exceptions. See Dkt. 495, Declaration of Gregory Wong, Ex. E Table of
Exemptions from Public Records Disclosure. 2 The
Initiative added an exception for “sensitive personal
information of vulnerable individuals and sensitive
personal information of in-home caregivers for
vulnerable populations from inspection and copying”
under the Act, and defined sensitive personal
information to include names, in addition to
addresses, GPS coordinates, telephone numbers,
email addresses, social security numbers, driver’s
license numbers, “or other personally identifying
information.” Dkt. 47-1 10.
Neither party provides an explicit comparison of
which identifying data points were available prior to
the passage of the Initiative which are now not
available. 3 Based on the Court’s examination of the
text of RCW 42.56.250(4), “[r]esidential addresses,
residential telephone numbers, personal wireless
telephone numbers, personal electronic mail
addresses, social security numbers, and emergency
contact information of employees or volunteers of a
public agency” in personnel records or public
employment related records have been excluded from
As the Campaign explains “[s]ome exemptions have obvious
policy bases, such as for the identity of victims or witnesses of
crime, while others are less obvious, such as information in
commercial fertilizer reports and personal information of
individual American ginseng growers and dealers.” Dkt. 48 at 18
(citing RCW 42.56.240(2), 42.56.380(2), 42.56.380(6)).
2

3 Plaintiffs argue the only “effective change was to keep nonpreferred entities and individuals such as Plaintiffs from
learning the names of the [caregivers].” Dkt. 50 at 6.

App-94
public inspection and copying since at least 2006, 4 and
driver’s license numbers and identicard numbers have
been excluded since 2014. 5 Comparing this
information to § 8(2)(b) of the Initiative, it appears
that for caregivers, the only additional information the
Initiative withholds is their names. See Dkt. 47-1 10.
The Initiative continues to allow some entities to
access caregiver identities, including the certified
bargaining representative under RCW 41.56.080, see
§ 11(d), parties to contracts with the state where the
contract requires disclosure, see § 11(f), or entities
under contract with the state to provide services to or
conduct research about vulnerable residents, see
§ 11(g).
The argument for the Initiative in the Voters’
Guide noted that seniors and vulnerable people were
particularly at risk of identity theft and other
financial exploitation or scams. Dkt. 49-2 at 6-7. The
argument against the Initiative in the Guide claimed
the Initiative’s goal “is to rewrite the Public Records
Act to prevent in-home caregivers and childcare
providers from learning they no longer can be forced
to pay dues to the union.” Id.
On April 5, 2017, Plaintiffs filed a complaint
against the State alleging that the Initiative violates
Plaintiffs’ rights to free speech and free association
under the First Amendment, and right to equal
protection of the laws under the Fourteenth
Amendment, seeking a permanent injunction
4 See 2006 Wash. Sess. Laws ch. 209 § 6 (recodifying and
making technical corrections to public disclosure law).
5

See 2014 Wash. Sess. Laws ch. 106 § 1.

App-95
enjoining the State from enforcing the Initiative.
Dkt. 1, ¶¶ 89-132.
Also on April 5, Plaintiffs filed a motion for a
temporary restraining order against the State,
seeking to enjoin the Initiative. Dkt. 2. Plaintiffs
raised their First Amendment and Equal Protection
claims, as well as Thurber and Benn’s desire to call an
election to replace SEIU 925 with another union for
child caregivers. Dkt. 2 at 12. To call an election at
that time, they would have had to “convince 30% of
Childcare Providers to call for an election during the
month of April” to meet the deadline, sixty days prior
to the expiration of the then-current collective
bargaining agreement for child caregivers. Dkt. 2 at
12. On April 10, 2017 the State responded, Dkt. 15,
and the Court held a hearing. The Court denied the
temporary restraining order due to Plaintiffs’ failure
to show a likelihood of success on the merits and delay
in bringing the motion. Dkt. 21. Also on April 10, the
Campaign filed a motion to intervene as a defendant.
Dkt. 17. On May 11, 2017, the Court granted the
Campaign’s motion to intervene. Dkt. 31.
On July 17, 2018, the State and the Campaign
each filed motions for summary judgment. Dkts. 47,
48. On July 18, 2018, Plaintiffs filed a cross-motion for
summary judgment. Dkt. 50. On August 6, 2018, the
parties responded. Dkts. 60, 61, 63. On August 10,
2018, the parties replied. Dkts. 65, 67, 68. 6

6 On November 30, 2018, the Campaign filed a notice of
supplemental authority. Dkt. 71. Plaintiffs moved to strike the
supplemental authority on December 5, 2018. Dkt. 72. The
Campaign responded on December 12, 2018. The Court does not

App-96
II. DISCUSSION
In this case, the dispute centers on whether Part
Three of the Initiative violates the Constitution. Both
sides agree the dispute is primarily legal rather than
factual. Dkts. 47 at 3, 48 at 14, 63 at 7. The primary
legal question is whether a statute enacted by
Washington voters is constitutional. As a threshold
matter, legislative classifications are presumed
constitutional, and “the burden of showing a statute to
be unconstitutional is on the challenging party.” N.Y.
State Club Ass’n, Inc. v. City of New York, 487 U.S. 1,
17 (1988).
Regarding the merits, Plaintiffs assert two Equal
Protection claims and three First Amendment claims.
The Court considers the First Amendment claims
first, concluding that Plaintiffs have failed to establish
any violation of a fundamental right. Based on that
conclusion, the Court grants the State and the
Campaign’s motions for summary judgment on
Plaintiffs’ First Amendment claims and first Equal
Protection claim, which is based on interference with
a fundamental right. The Court then considers
Plaintiffs’ second Equal Protection claim under
rational basis review and concludes that Plaintiffs
have failed to establish any constitutional violation.
A. Summary Judgment Standard
Summary judgment is proper only if the
pleadings, the discovery and disclosure materials on
file, and any affidavits show that there is no genuine
issue as to any material fact and that the movant is
address the case updated in the Campaign’s notice, and so does
not address Plaintiffs’ motion.

App-97
entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(c). The moving party is entitled to judgment as a
matter of law when the nonmoving party fails to make
a sufficient showing on an essential element of a claim
in the case on which the nonmoving party has the
burden of proof. Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). There is no genuine issue of fact for trial
where the record, taken as a whole, could not lead a
rational trier of fact to find for the nonmoving party.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986) (nonmoving party must present
specific, significant probative evidence, not simply
“some metaphysical doubt”). See also Fed. R. Civ.
P. 56(e). Conversely, a genuine dispute over a material
fact exists if there is sufficient evidence supporting the
claimed factual dispute, requiring a judge or jury to
resolve the differing versions of the truth. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 253 (1986); T.W.
Elec. Serv., Inc. v. Pac. Elec. Contractors Ass’n, 809
F.2d 626, 630 (9th Cir. 1987).
The determination of the existence of a material
fact is often a close question. The Court must consider
the substantive evidentiary burden that the
nonmoving party must meet at trial—e.g., a
preponderance of the evidence in most civil cases.
Anderson, 477 U.S. at 254; T.W. Elec. Serv., Inc., 809
F.2d at 630. The Court must resolve any factual issues
of controversy in favor of the nonmoving party only
when the facts specifically attested by that party
contradict facts specifically attested by the moving
party. The nonmoving party may not merely state that
it will discredit the moving party’s evidence at trial, in
the hopes that evidence can be developed at trial to
support the claim. T.W. Elec. Serv., Inc., 809 F.2d at

App-98
630 (relying on Anderson, 477 U.S. at 255).
Conclusory, nonspecific statements in affidavits are
not sufficient, and missing facts will not be presumed.
Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888-89
(1990).
B. First Amendment
Plaintiffs allege that creating a PRA exception for
caregiver identities interferes with Plaintiffs’ exercise
of free speech and association because the identity
lists “are essential for both Plaintiffs and the Unions
to engage in political speech with [caregivers].” Dkt. 1,
¶ 96. Plaintiffs rely on seven lines of doctrine to
support their claim that the exception burdens their
First Amendment speech and association rights:
(1) methods of communication cases, (2) access to
government cases, (3) ballot access cases, (4) right to
listen cases, (5) viewpoint discrimination cases,
(6) overbreadth cases, and (7) freedom of association
cases. The Court concludes that none of the
authorities cited by Plaintiffs establishes that the
Initiative burdens their First Amendment rights.
a.

Methods of Communication

Plaintiffs argue that the substantial Supreme
Court precedent protecting picketing and door-to-door
pamphlet distribution shows the First Amendment
prohibits banning access to a particular audience or a
particular method of communication. Dkt. 50 at 21.
See, e.g., Martin v. City of Struthers, 319 U.S. 141, 14647 (1943) (“Freedom to distribute information to every
citizen wherever he desires to receive it is so clearly
vital to the preservation of a free society that, putting
aside reasonable police and health regulations of time
and manner of distribution, it must be preserved.”);

App-99
Schneider v. State of New Jersey, Town of Irvington,
308 U.S. 147, 164 (1939) (“[P]amplets have proved
most effective in the dissemination of opinion. And
perhaps the most effective way of bringing them to the
notice of individuals is their distribution at the homes
of the people.”). Plaintiffs also cite Meyer v. Grant, 486
U.S. 414 (1988), where the state impermissibly
prohibited paying petition circulators, to support the
proposition that courts find burdens on speech when
laws restrict the number of voices putting forward a
particular message or reduce speakers’ “ability to
make the issue a statewide discussion.” Dkt. 50 at 19
(citing 486 U.S. at 421-22). Plaintiffs convincingly
establish that the Supreme Court values affordable
methods of distributing speech, but their cited
authorities do not support the proposition that the
First Amendment compels the government to disclose
information to help speakers identify their target
audience. Unlike the cited authorities, the Initiative
does not burden any methods of communication
Plaintiffs may use to speak to caregivers once
Plaintiffs have identified them—Plaintiffs may
canvass, hire paid canvassers, distribute pamphlets,
make speeches, advertise and hold meetings, picket,
or send mailers to distribute their speech. Thus,
Plaintiffs have failed to establish any unconstitutional
restriction on a method of communication.
Plaintiffs also cite Police Department of Chicago v.
Mosely, 408 U.S. 92, 95-96 (1972) (city ordinance
allowing only labor-based picketing near schools) and
Carey v. Brown, 447 U.S. 455 (1980) (state law
exempting labor-based picketing from ban on
picketing at dwelling-places) for the proposition that
differential treatment of union and non-union speech

App-100
violates the Equal Protection Clause. Dkt. 50 at 2728. 7 In Perry Educ. Ass’n v. Perry Local Educators’
Ass’n, 460 U.S. 37 (1983) (“Perry Education”), the rival
union cited Mosely and Carey for the proposition that
the certified teacher’s union’s exclusive access to
teacher mailboxes violated the First Amendment and
the Equal Protection Clause. Id. at 41, 54. There, the
Supreme Court distinguished Mosely and Carey,
saying “[t]he key to those decisions . . . was the
presence of a public forum. In a public forum, by
definition, all parties have a compelling right of
access.” Id. at 54-55.
In this case, Plaintiffs have failed to establish a
“forum” wherein the alleged discrimination is
occurring. Plaintiffs have failed to cite, and the Court
is unaware of any, authority for the proposition that a
list of names is either a public or private forum for
communication. Unlike a set of mailboxes allowing a
speaker to insert pamphlets, a list of names simply
identifies individuals. Thus, Plaintiffs’ reliance on
Mosely and Carey is misplaced. Even if the list could
be considered a forum, the Supreme Court has held
that “when government property is not dedicated to
open communication the government may—without
further justification—restrict use to those who
participate in the forum’s official business,”
particularly when substantial alternative channels
remain open for the rival union. Id. at 53. Plaintiffs
fail to establish that the list is dedicated to open
communication or that they would participate in the
7 The Court will also address Plaintiffs’ concerns about
distinguishing between union and non-union speech in its
discussion of viewpoint discrimination.

App-101
list’s official business. Thus, the state may, “without
further justification,” restrict access to the list. Id.
Plaintiffs also rely on Perry Education in arguing
that they have a right to access government
information identifying caregivers because, they
believe, there is no other simple or inexpensive way to
identify caregivers. Dkt. 63 at 9-10. Plaintiffs,
however,
fail
to
establish
a
fundamental
constitutional right based on the alleged difficulty of
their intended task. Similar to Perry Education,
Plaintiffs fail to show that their ability to
“communicate” with their intended audience is
seriously impinged by Part Three of the Initiative. 460
U.S. at 53 (“There is no showing here that [the rival
union’s] ability to communicate with teachers is
seriously impinged by the restricted access to the
internal mail system.”). The Court recognizes that
Plaintiffs would be more easily able to contact the
audience if they had access to the list of identities, but
speaking or communicating and contacting a specific
recipient are distinctly different acts. Therefore,
Plaintiffs’
reliance
on
these
methods
of
communication cases is without merit.
b.

Government Access

Perhaps the most vehement disagreement
between the parties is about how to properly apply the
First Amendment doctrines on access to government
records or proceedings to the facts of this case.
Defendants argue this case should follow Los Angeles
Police Dep’t v. United Reporting Publ’g Corp., 528 U.S.
32, 34 (1999), Houchins v. KQED, Inc., 438 U.S. 1, 14
(1978), and related cases, which firmly disavow the
existence of a government obligation under the First

App-102
Amendment to disclose government information or
records. Plaintiffs rely on Press-Enterprise v. Superior
Court, 478 U.S. 1 (1986) and its progeny, which
developed a two-part test to consider when “public
access to criminal trials and the selection of jurors is
essential to the proper functioning of the criminal
justice system.” Id. at 7, 11-12. Three circuits and
multiple district courts have applied these rules more
broadly. See Leigh v. Salazar, 677 F.3d 892, 899 n.5
(9th Cir. 2012) (collecting cases). The Court will
discuss these cases in turn.
Los Angeles Police Dep’t. In Los Angeles Police
Dep’t, California passed a statute requiring those
placing public records requests for names and
addresses of recently arrested individuals to “declare
that the request is being made for one of five
prescribed purposes, and that the requester also
declare that the address will not be used directly or
indirectly to sell a product or service.” 528 U.S. at 34.
A private company in the business of providing the
names to attorneys and insurance companies brought
a facial challenge. Id. The Supreme Court explained
Petitioner
[the
Los
Angeles
Police
Department] contends that the section in
question is not an abridgement of anyone’s
right to engage in speech, be it commercial or
otherwise, but simply a law regulating access
to information in the hands of the police
department. We believe that, at least for
purposes of facial invalidation, petitioner’s
view is correct.
Id. at 40 (emphasis added). The Court further
reasoned “California could decide not to give out

App-103
arrestee information at all without violating the First
Amendment.” Id. (citing Houchins v. KQED, Inc., 438
U.S. 1, 14 (1978)). 8
In Houchins, in response to a news station’s First
Amendment claim for access to jails to interview
inmates following reports of a prisoner’s suicide, the
Supreme Court plurality explained that despite the
media’s First Amendment right to gather information,
“[t]his Court has never intimated a First Amendment
guarantee of a right of access to all sources of
information within government control.” 438 U.S. at
9. The Court reasoned that “[t]here is no discernible
basis for a constitutional duty to disclose, or for
standards governing disclosure of or access to
information.” Id. at 14. 9 Justice Stewart, concurring
with the Houchins plurality, stated that “[t]he First
and Fourteenth Amendments do not guarantee the
public a right of access to information generated or
controlled by the government, nor do they guarantee
the press any basic right of access superior to that of
The Court notes that Los Angeles Police Department
contained multiple concurring opinions, none of which dispute
the cited reasoning.
8

The plurality went on at some length on this topic, explaining
“Petitioner cannot prevent respondents from learning about jail
conditions in a variety of ways, albeit not as conveniently as they
might prefer. Respondents have a First Amendment right to
receive letters from inmates criticizing jail officials and reporting
on conditions. Respondents are free to interview those who
render the legal assistance to which inmates are entitled. They
are also free to seek out former inmates, visitors to the prison,
public officials, and institutional personnel, as they sought out
the complaining psychiatrist here.” Houchins, 438 U.S. at 15
(internal citations omitted).
9

App-104
the public generally.” Id. at 16 (Stewart, J.,
concurring). In a more recent case, Entler v. McKenna,
the Ninth Circuit affirmed the district court’s
dismissal of a state prisoner’s claim that a state
official had violated his constitutional rights by
lobbying for amendments to Washington’s Public
Disclosure Act, stating “there is no constitutional right
to public disclosure of government documents.” 487
Fed. Appx. 417, 417-418 (9th Cir. 2012). These
precedents
provide
substantial
support
for
Defendants’ argument that “laws restricting public
access to records do not implicate the First
Amendment at all.” Dkt. 47 at 3.
Press-Enterprise. The Press-Enterprise test,
developed in application to the criminal justice
system, asks “(1) whether historical experience
counsels in favor of public access, and (2) whether
public access would play a ‘significant positive role in
the functioning of the particular process in question.’”
478 U.S. at 8. In recent years, circuit and district
courts have applied this test when they consider
“attempts to access a wide range of civil and
administrative government activities.” Leigh, 677
F.3d at 899.
Plaintiffs highlight a Ninth Circuit case applying
the test, Cal-Almond, Inc. v. U.S. Dept. of Agriculture,
960 F.2d. 105, 109-110 (9th Cir. 1992), where an
almond handler sought the identities of producers who
would vote in a marketing referendum in order to
lobby them. Id. at 106-07. The Court concluded that a
serious constitutional question might exist if the
statue did not allow the disclosure. Id. at 109. In
applying the doctrine of constitutional avoidance, the

App-105
Circuit reasoned that a tradition of public access to
voter lists likely exists, the legislation in question was
open to such construction, and therefore “it is
reasonable to assume that Congress intended the lists
of eligible voters to be a matter of public record.” Id. at
110.
While this reasoning is dicta, Plaintiffs are correct
that the posture of the Cal-Almond parties is similar
to the case at bar to the extent that Plaintiffs Thurber
and Benn seek to lobby caregivers to vote for their
alternate union. Dkt. 63 at 13. However, Plaintiffs do
not meet their burden to present precedent or
historical fact showing a tradition of public access to
the identities of public employees or union members to
satisfy the first part of the Press-Enterprise test. See
Dkt. 63 at 13-14. In considering that factor, the PressEnterprise court described the history of criminal
trials dating back to the Norman Conquest, noting
that “even our modern procedural protections have
their origin in the ancient common-law principle
which provided, not for closed proceedings, but rather
for rules of conduct for those who attend trials.” 478
U.S. at 8 (internal citation omitted). Plaintiffs cite
Harris and Janus on the “rights of all government
employees not to be compelled to finance union
speech.” Dkt. 63 at 14 (citing 134 S. Ct. 2618 and 138
S. Ct. at 2464). In Harris, the Supreme Court
specifically distinguished factual circumstances like
the one at bar, saying “Petitioners do not contend that
they have a First Amendment right to form a rival
union. Nor do they challenge the authority of [the
certified union] to serve as the exclusive
representative of all the personal assistants in
bargaining with the State.” 134 S. Ct. at 2640.

App-106
Plaintiffs quote the Court’s statement in Janus that
“[d]esignating a union as the employees’ exclusive
representative substantially restricts the rights of
individual employees . . . .” but omit the second half of
the Court’s reasoning, that this restriction supports
the union’s obligation to provide equal representation
for all employees in the bargaining unit regardless of
their union membership. 138 S. Ct. at 2460. The Court
agrees with Defendants that these recent cases do not
establish a “long-recognized tradition of access to
public records” or to lists of government employee
identities. Dkt. 67 at 5.
Addressing the second half of the Press-Enterprise
test, whether public access plays a significant positive
role in the functioning of the particular process in
question, Plaintiffs argue public access to caregiver
identities will disrupt the unions’ “monopoly” on
communication with the caregivers. Dkt. 63 at 14 (“IPs
themselves, alternative Unions, or entities like the
Freedom Foundation are all prevented from being able
to speak to IPs.”). Cases applying Press-Enterprise
outside the criminal justice context have involved
government criminal or civil enforcement, information
about public figures or government action, or
government meetings. See Leigh, 677 F.3d at 899 n.5
(collecting cases). These cases appear united by
recognized traditions of citizen government oversight.
Plaintiffs do not clarify what process they believe
would benefit from increased public access, whether
that is caregiver union elections, caregiver
participation in collective bargaining, or societal
political debate about the value of collective
bargaining between caregivers and the state. To the

App-107
extent Plaintiffs believe it is too difficult to decertify
caregiver unions, and public access to caregiver
identities would significantly improve union elections,
those arguments would be appropriate in a challenge
involving the complete context of the state’s collective
bargaining laws. 10 That is not the case here.
Additional historical analysis and specificity could
present a more compelling case, but on the record
before the Court, an unestablished tradition of public
access combined with a vague positive impact on an
unspecified process does not support mandated access
to government records under Press-Enterprise.
Because Plaintiffs have not satisfied the PressEnterprise test, and Los Angeles Police Dep’t and
related cases declare firmly that legislative policy
decisions on public records disclosure do not generally
implicate fundamental rights under the First
Amendment, the Court concludes that Plaintiffs have
failed to establish infringement of fundamental First
Amendment rights.
c.

Ballot Access

Plaintiffs cite one ballot access case, Bullock v.
Carter, 405 U.S. 134 (1972) for the proposition that the
First Amendment “broadly protects not only the
For example, there appear to be different thresholds of
interest required to initiate representation elections for different
types of employees—in an unfair labor practice complaint filed by
Thurber’s Pacific Northwest Child Care Association
(“PNWCCA”) with the Washington Public Employment Relations
Commission against the State of Washington, PNWCCA argues
that the 30 percent showing of interest required for a
representation election is too onerous for child caregivers,
particularly when compared to the 10 percent showing required
for adult caregivers under WAC 391-25-051. Dkt. 47-1 at 39.
10

App-108
expression of speech but also the methods used to
facilitate speech,” Dkt. 50 at 19, and another, Williams
v. Rhodes, 393 U.S. 23 (1968) for the proposition that
a facially neutral law burdening associational rights
must be justified by a compelling state interest.
Dkt. 63 at 21. Bullock found that the state had created
“a system that utilizes the criterion of ability to pay as
a condition to being on the ballot, thus excluding some
candidates otherwise qualified and denying an
undetermined number of voters the opportunity to
vote for candidates of their choice” in contravention of
equal protection. 405 U.S. at 149. Williams held that
strict procedural requirements for new parties to place
candidates on the presidential election ballot
burdened the right to cast effective votes and the right
to associate for political purposes and could not
survive strict scrutiny. 393 U.S. at 30. However, while
these cases in dicta make many persuasive statements
about the foundational importance of political
organizing and the duty of government to refrain from
burdening such organizing, they do so in the context
of election to public office. As the Supreme Court
explains in Anderson v. Celebrezze, 460 U.S. 780, 793
(1983) “[o]ur ballot access cases . . . focus on the
degree to which the challenged restrictions operate as
a mechanism to exclude certain classes of candidates
from the electoral process.” Plaintiffs do not seek
access to the electoral process, and do not cite
authority applying election law doctrine to union

App-109
elections, which have their own complex set of
regulations and oversight.
d.

Right to Listen

Plaintiffs argue that withholding caregiver
identities interferes with the caregivers’ right to hear
Plaintiffs’ speech. Dkt. 50 at 24-26 (citing Red Lion
Broadcasting Co. v. FCC, 395 U.S. 367, 390 (1969)
(“right of the public to receive suitable access to social,
political, esthetic, moral, and other ideas”); Thomas v.
Collins, 323 U.S. 516, 534 (1945) (right of workers to
“hear what [the labor organizer] had to say); Martin v.
City of Struthers, Ohio, 319 U.S. 141, 143-44 (1943)
(“The ordinance does not control anything but the
distribution of literature, and, in that respect, it
substitutes the judgment of the community for the
judgment
of
the
individual
householder.”)).
Defendants “do[] not dispute that the corollary to
freedom of speech is the right to receive information,”
but argue that Plaintiffs’ reliance on caselaw
restricting a means of communication to a particular
audience is misplaced. Dkt. 60 at 10. The right to
receive information is derivative of the right to speak:
that is, “where a speaker exists . . . the protection
afforded is to the communication, to its source and to
its recipients both.” Va. State Bd. of Pharmacy v. Va.
Citizens Consumer Counsel, Inc., 425 U.S. 748, 756
(1976). Because the Court finds Plaintiffs have not
established infringement of their free speech, the
Court finds no derivative burden on caregivers’ right
to listen. 11
11 The Court further notes that Plaintiffs did not include this
claim in their complaint, see Dkt. 1, nor explain how this claim
impacts the rights of Plaintiffs actually before the court, as

App-110
e.

Viewpoint Discrimination

Plaintiffs allege that “Part III of [the Initiative]
favors the Union’s political and ideological viewpoints
because the [I]nitiative exempts unions from its
coverage . . . . Because the Initiative only burdens the
speech of individuals and entities with views
divergent from those of the Union, it is viewpointdiscriminatory.” Dkt. 1, ¶ 116.
Even if Plaintiffs’ records requests did constitute
speech, the Initiative still does not discriminate based
on viewpoint by disclosing caregiver identities to the
certified collective bargaining representative and not
Plaintiffs. As the Supreme Court explained in Perry
Education, when the rival union alleged access to
teacher mailboxes for the certified union constituted
viewpoint discrimination, “it is more accurate to
characterize the access policy as based on the status of
the respective unions rather than their views.” 460
U.S. at 49.
Plaintiffs are not the certified representative. The
Initiative discloses caregiver identities to the certified
bargaining representative under RCW 41.56.080, or
parties to contracts with the state where disclosure is
required or the entity is providing services to
vulnerable residents or conducting research about
them. Dkt. 47-1 at 11-12. These are all status
distinctions, based on a contractual relationship or
legal obligation to provide collective bargaining
services, and do not involve “unbridled discretion in
the hands of a government official or agency” as found
opposed to caregivers in Washington generally, whom Plaintiffs
do not claim to represent. See Dkts. 50, 63, 65.

App-111
unconstitutional in City of Lakewood v. Plain Dealer
Publishing Co., 486 U.S. 750 (1988) or make a contentbased distinction between topics of speech, see Boos v.
Berry, 485 U.S. 312 (1988) (striking down ordinance
prohibiting signs criticizing embassy within 500 feet
of the embassy). The Janus court’s reasoning that an
exclusive representative designation comes with
“special privileges” for the union like “obtaining
information about employees” further supports a
conclusion that providing access to information for the
certified bargaining representative and not for others
would not represent a First Amendment violation. 138
S. Ct. at 2467. Therefore, Plaintiffs’ claim of viewpoint
discrimination is unfounded, and the Court grants
summary judgment for Defendants on Plaintiffs’
Claim Three.
f.

Overbreadth

Plaintiffs allege Part Three of the Initiative is
overbroad, its “real, and sole, purpose is to silence the
Plaintiffs’ viewpoints,” and its “restrictions on access
to Provider lists bears [sic] a close and obvious nexus
to Plaintiffs’ speech.” Dkt. 1, ¶¶ 122-123. Plaintiffs
cite United States v. Stevens, 559 U.S. 460 (2010) to
define the concept of overbreadth, describing
legislation where “a substantial number of its
applications are unconstitutional, judged in relation to
the statue’s plainly legitimate sweep” but proceed to
discuss City of Lakewood, 486 U.S. 750, Arcara v.
Cloud Books, Inc., 478 U.S. 697 (1986), and
Minneapolis Star & Tribune Co. v. Minn. Comm’r of
Revenue, 460 U.S. 575 (1983), cases not typically

App-112
associated with the overbreadth doctrine. 12 The Court
will address Plaintiffs’ arguments on the cases
discussed.
Plaintiffs argue that the Initiative could fall
under the Supreme Court’s “course of conduct”
analysis, see Dkt. 50 at 26, where the Court “has
applied First Amendment scrutiny to a statute
regulating conduct which has the incidental effect of
burdening the expression of a particular political
opinion,” Arcara, 478 U.S. at 702 (citing United States
v. O’Brien, 391 U.S. 367 (1968)). Applying this test to
the burden on speech posed by closing an adult
bookstore due to prostitution activity, the Supreme
Court found “unlike the symbolic draft card burning
in O’Brien, the sexual activity carried on in this case
manifests absolutely no element of protected
expression.” Arcara, 478 U.S. at 705. While the
distinction between prostitution and books may be
more stark than the distinction between records
requests and mailer distribution, the Court is not
convinced Plaintiffs have shown that their records
requests constitute expressive activity. There is no
doubt Plaintiffs wish to identify the caregivers so they
can speak to them. But Plaintiffs do not suggest they
Cases and concepts typically associated with overbreadth
include Schad v. Borough of Mt. Emphraim, 452 U.S. 61, 66
(1981) (town ordinance prohibited live entertainment to target
nude dancing, but swept in plays, concerts, and musicals),
Broadrick v. Oklahoma, 413 U.S. 601, 615-16 (1973) (state law
prohibiting political activity by government employees not
facially overbroad on potential to sweep in political buttonwearing or bumper sticker displays), or Houston v. Hill, 482 U.S.
451 (1987) (ordinance prohibiting interrupting police in course of
their duties swept in impermissible amount of protected speech).
12

App-113
place public records requests for the purpose of the
request encouraging the caregivers to leave their
union or join an alternative, nor do they suggest they
are demonstrating their opposition to state policy
through placing public records requests. They seek the
records so they can more efficiently identify their
target audience to direct their canvassing or mailer
distribution. In sum, Plaintiffs fails to establish that
they express their position by placing the records
request.
Minneapolis Star and City of Lakewood are
similarly inapposite, involving, respectively, a tax on
newsprint and ink, 460 U.S. at 585, and a requirement
for a permit granted at the mayor’s discretion to place
newsracks on public property, 486 U.S. at 754. These
cases both address the Supreme Court’s particular
concern about legislation “directed narrowly and
specifically at expression or conduct commonly
associated with expression: the circulation of
newspapers.” See Dkt. 50 at 26 (citing City of
Lakewood, 486 U.S. at 760). Plaintiffs fail to establish
that the Initiative is invalid on the basis of
overbreadth or otherwise violates the First
Amendment, and therefore the Court grants summary
judgment for Defendants on Plaintiffs’ Claim Four.
g.

Freedom of Association

Plaintiffs Thurber and Benn allege violation of
their freedom of association, explaining that
“[w]ithout the list of Childcare Providers, [they]
cannot exercise their fundamental associational
rights” to decertify SEIU “and are permanently
subjected to an association with SEIU 925.” Dkt. 1,
¶ 130. Plaintiffs cite Thomas, 323 U.S. at 519, 522 n.2,

App-114
where the Supreme Court found a Texas law requiring
an organizer’s card for union solicitation as applied to
a speech by the president of a large national union was
a prior restraint on his right to free speech and free
association. Dkt. 50 at 27. There, the court reasoned
that “[t]he right thus to discuss, and inform people
concerning, the advantages and disadvantages of
unions and joining them is protected not only as part
of free speech, but as part of free assembly.” Id. at 532.
Plaintiffs also cite State Emp. Bargaining Agent Coal.
v. Rowland, 718 F.3d 126, 132 (2nd Cir. 2013) where
labor organizations and state employees alleged the
state “discriminatorily la[id] off only union members
when reducing the state’s work force.” Dkt. 50 at 27.
There,
the
Second
Circuit
reasoned
that
“[c]onditioning public employment on union
membership, no less that on political association,
inhibits protected association and interferes with
government employee’s freedom to associate,” thus
subjecting “employment decisions based on union
membership” to strict scrutiny. Rowland, 718 F.3d at
133-35. Here, as discussed above, the operative
restriction is of public records, not speech or
discussion. Further, the Initiative’s limits on access to
public records are not employment decisions.
The Campaign highlights that traditional First
Amendment associational protections include the
right to refuse to disclose membership lists for
advocacy groups, NAACP v. State of Ala. ex rel.
Patterson, 357 U.S. 449, 462 (1984), and right to refuse
entry of undesired individuals into an association,
Roberts v. United States Jaycees, 468 U.S. 609, 623
(1984) and correctly points out that a government

App-115
obligation to assist a challenger union does not fall
into any of these categories. Dkt. 48 at 30.
Finally, Plaintiffs cite Janus to support their
argument that associational rights are implicated in
exclusive union representation. However, as
Defendants clarify, Janus held union agency fees from
nonmembers constituted compelled speech in
violation of First Amendment. 138 S. Ct. 2486. It did
not hold, as Plaintiffs argue, that exclusive union
representation is compelled association in violation of
the First Amendment, or that such a “compelled
association” creates a state obligation “to disclose to
them with whom they are associating.” Dkt. 63 at 11.
Plaintiffs do not cite to other authority establishing
that exclusive representation of a collective
bargaining unit constitutes an impermissible
restriction on the right to association.
The Court is persuaded by Defendants’ argument
that despite the long and highly litigated history of
labor relations laws such as the federal LaborManagement Relations Act, 29 U.S.C § 7 et seq., and
the Washington Public Employees’ Collective
Bargaining Act, RCW Chapter 41.56, neither party
has cited authority requiring an employer to disclose
the identities of the members of the collective
bargaining unit to a group wishing to associate with
them. Dkt. 47 at 24. As previously noted, to the extent
Plaintiffs Thurber and Benn wish to decertify the
existing child caregiver union and believe the
Initiative’s disclosure provision makes that effort too
onerous, they fail to establish that the Initiative
infringes their First Amendment right to freedom of

App-116
association. Therefore, the Court grants summary
judgment for Defendants on Plaintiffs’ Claim Five.
C. Equal Protection
Plaintiffs bring two equal protection claims: first,
that the Initiative interferes with their fundamental
rights of speech and association and therefore is
subject to heightened scrutiny under the Equal
Protection Clause, and second, that the Initiative
makes an impermissible distinction among similarly
situated records requesters and was motivated by
animus, thus failing even rational basis review.
Dkt. 1, ¶¶ 89-109. Plaintiffs allege the Initiative is
unconstitutional both facially and as applied to
Plaintiffs. Id.
1.

Interference with Fundamental Rights

Plaintiffs allege that the Initiative “significantly
interferes with citizens’ fundamental rights
and . . . does not pass strict scrutiny.” Dkt. 1, ¶ 90.
“[E]qual protection analysis requires strict scrutiny of
a legislative classification only when the classification
impermissibly interferes with the exercise of a
fundamental right or operates to the peculiar
disadvantage of a suspect class.” Mass. Bd. of Ret. v.
Murgia, 427 U.S. 307, 312 (1976). Plaintiffs do not
allege the classification burdens a suspect class, see
Dkt. 1, ¶ 109 (“Defendants treat similarly-situated,
non-suspect class groups differently”), and the Court
found no interference with Plaintiffs’ fundamental
First Amendment rights. Therefore, the Court finds no
equal protection violation that requires strict scrutiny,
and grants summary judgment for Defendants on
Plaintiffs’ Claim One.

App-117
2.

Animus and Similarly Situated Groups

Plaintiffs allege they are similarly situated to the
certified
collective
bargaining
representative
permitted to access caregiver identities under § 8(d) of
the Initiative, because “both are groups and
individuals that engage in constitutionally protected
speech with [caregivers],” and so should be afforded
equal access to caregiver identities. Dkt. 1, ¶ 101.
Plaintiffs further allege the Initiative “was drafted
with the intention to silence the Foundation’s political
speech and thus harm the Foundation” and was
“motivated solely by [the unions’] animus toward the
Foundation, its outreach efforts, and its political
speech.” Dkt. 1, ¶ 106, 107.
“The Equal Protection Clause of the Fourteenth
Amendment commands that no State shall ‘deny to
any person within its jurisdiction the equal protection
of the laws,’ which is essentially a direction that all
persons similarly situated should be treated alike.”
City of Cleburne, Tex. v. Cleburne Living Ctr., 473 U.S.
432, 439 (1985) (quoting Plyler v. Doe, 457 U.S. 202
(1982)). “[I]f a law neither burdens a fundamental
right nor targets a suspect class, we will uphold the
legislative classification so long as it bears a rational
relation to some legitimate end.” Romer v. Evans, 517
U.S. 620, 631 (1996).
Rational basis review requires two steps of
analysis. First, “[d]oes the challenged legislation have
a legitimate purpose?” Western and Southern Life Ins.
Co. v. State Bd. of Equalization of Cal., 451 U.S. 648,
668 (1981). A “bare . . . desire to harm a politically
unpopular group” can never constitute a legitimate
government purpose. Romer, 517 U.S. at 634 (quoting

App-118
Dep’t of Agric. v. Moreno, 413 U.S. 528, 534 (1973)).
Further, “[t]he State may not rely on a classification
whose relationship to an asserted goal is so attenuated
as to render the distinction arbitrary or irrational.”
City of Cleburne, 473 U.S. at 446 (internal citations
omitted).
Second, “[w]as it reasonable for the lawmakers to
believe that use of the challenged classification would
promote that purpose?” Western and Southern Life
Ins. Co., 451 U.S. at 668. Plaintiffs, as “those
challenging the legislative judgment” have the burden
to “convince the court that the legislative facts on
which the classification is apparently based could not
reasonably be conceived to be true by the
governmental decisionmaker.” Vance v. Bradley, 440
U.S. 93, 111 (1979) (upholding mandated retirement
at age 60 for Foreign Service employees, in contrast to
age 70 for Civil Service employees) (collecting cases).
Challengers may present evidence that the legislation
is irrational, but “they cannot prevail so long as ‘it is
evident from all the considerations presented to [the
legislature], and those of which we make take judicial
notice, that the question is at least debatable.’” Minn
v. Clover Leaf Creamery Co., 449 U.S. 456, 464 (1981)
(quoting United States v. Carolene Products Co., 304
U.S. 144, 153-54 (1938)). The Ninth Circuit explains
that the equal protection doctrine outside
infringement
on
fundamental
rights
and
discrimination against suspect classes, asks “[courts]
to imagine any conceivable basis supporting a law,
even if not advanced by the government.” Fowler
Packing Company, Inc. v. Lanier, 844 F.3d 809, 815
n.3 (9th Cir. 2016) (emphasis added). Here, the
classification at issue is between the certified

App-119
collective bargaining representative and Plaintiffs,
who would like to receive the list of caregiver
identities for political speech or to elect an alternative
union.
a.

Similarly Situated Groups

Plaintiffs Boardman and Freedom Foundation
seek to communicate with caregivers about their
“Harris rights.” Dkt. 50 at 10-11. The certified
collective bargaining representative has a legal
responsibility to negotiate on behalf of all caregivers
with the state employer about their employment. See
RCW 41.56.080. Plaintiffs Boardman and Freedom
Foundation do not assert that they have or wish to
assume this legal responsibility. Therefore, Plaintiffs
Boardman and Freedom Foundation are not similarly
situated to the certified collective bargaining
representative. Because these plaintiffs are not
similarly situated to those given the benefit they seek,
a classification treating them differently does not
violate the Equal Protection Clause on that basis.
Plaintiffs Thurber and Benn assert that they wish
to communicate with child caregivers about issues
relevant to the profession, and that they wish to call
an election to replace SEIU 925 with their association,
the PNWCCA. Dkt. 50 at 10. To the extent that they
wish to discuss concerns with the caregivers, they are
not similarly situated to the certified collective
bargaining representative. To the extent that they
wish to assume the position of certified bargaining
representative vis-à-vis the state employer, their
circumstance is similar, but they are not the certified
representative. They are a rival union. Courts
recognize that certification of an exclusive

App-120
representative is a permitted component of collective
bargaining regulatory structures, which may include
differential access to employees in the bargaining
unit. See, e.g., Perry Education, 460 U.S. at 49
(differential access to teacher mailboxes based on
status or lack thereof as certified bargaining
representative does not violate the Equal Protection
Clause); Janus, 138 S. Ct. at 2467 (unions will still
seek exclusive representative designation without
mandated agency fees because designation often
affords them “special privileges, such as obtaining
information about employees”). Therefore, the
Initiative’s distribution of caregiver identities to the
certified bargaining representative but not Plaintiffs
does not violate the Equal Protection Clause on the
basis of impermissible discrimination among similarly
situated groups.
b.

Animus

Next, the Court considers Plaintiffs’ argument
that the Initiative’s decision to withhold previously
available caregiver identities from public records
requests raises an “inevitable inference that the
disadvantage imposed is born of animosity toward the
class of persons affected.” See Dkt. 50 at 28 (citing
Romer, 517 U.S. at 634). Plaintiffs argue that the
Initiative targets their public records requests and
was “motivated by animus against Plaintiffs and their
message.” Dkt. 50 at 29. The stated purpose of Part
Three of the Initiative is to protect sensitive personal
information about in-home caregivers for vulnerable
populations “because its release could facilitate
identity
crimes
against
seniors,
vulnerable
individuals, and the other vulnerable populations that

App-121
these caregivers serve.” Dkt. 47-1 at 10. The State also
argues that protecting the privacy of the caregivers
themselves is another legitimate governmental
purpose promoted by withholding caregiver identities.
Dkt. 47 at 16 (citing Wash. Pub. Emp. Ass’n v. Wash.
State Ctr. For Childhood Deafness & Hearing Loss, 1
Wn. App. 225, 243 (2017) (state constitution provides
expectation of privacy for a public employee’s date of
birth in combination with his or her name), review
granted, 190 Wn.2d 1002 (2018)).
Plaintiffs do not contest that preventing identity
crimes against seniors and vulnerable individuals is a
legitimate government purpose, see Western and
Southern Life Ins. Co., 451 U.S. at 668, but argue that
the impact of a PRA exception on these crimes is
speculative, and caregiver privacy is an after-the-fact
justification, supporting an inference that the true
motivation was animus. Dkt. 63 at 11. “When the
politically unpopular group is not a traditionally
suspect class, a court may strike down the challenged
statute under the Equal Protection Clause if the
statute serves no legitimate governmental purpose
and if impermissible animus toward an unpopular
group prompted the statute’s enactment.” Animal
Legal Def. Fund v. Wasden, 878 F.3d 1184, 1200 (9th
Cir. 2018) (internal quotation omitted) (describing this
standard as “searching scrutiny”) Therefore, the Court
considers whether the legislation’s method of action is
“rationally related to the achievement” of the
legitimate purpose. Clover Leaf Creamery Co., 449
U.S. at 462-63.
The Initiative does not explicitly articulate how
withholding caregiver identities will protect

App-122
vulnerable individuals. The State argues that
caregivers often work in their client’s homes, Dkt. 47
at 16 (citing Dkt. 1, ¶ 20), and as the Initiative’s
general legislative findings state in § 4, these
vulnerable clients frequently have “less ability to
protect themselves . . . and can be targeted using
information available through public sources,
including publically available information that
identifies such individuals or their in-home
caregivers.” Id. (citing Dkt. 47-1 at 7). The Campaign’s
motion for summary judgment cites Washington
enforcement efforts to prevent fraud and identity theft
and notes that the Attorney General’s Fraud Fighters
consumer education program was established
“specifically to assist the elderly because they more
often are targeted for fraud.” Dkt. 48 at 10. Voters
received communications from the Campaign with
details about the rates of financial fraud committed
against seniors, the likelihood of fraud against seniors
going unreported, and headlines from local news
stories about cases of seniors losing their savings to
fraud. Dkt. 62-1 at 4-5. While this evidence is thin, it
is analogous to legislative history discussing the
“situations in which agricultural production facilities
have been, or may be, harmed as a result of a
misrepresentation leading to the acquisition of
records” in Animal Legal Defense Fund, 878 F.3d at
1201.
These points support an inference that
withholding a list of identities that would pinpoint
homes containing vulnerable seniors reduces the
amount of publically available information that could
be used identify targets for financial fraud and
identity theft, potentially reducing the rate at which

App-123
seniors fall victim to these crimes. Plaintiffs argue
that the purpose of protecting seniors and vulnerable
individuals from fraud is “based on nothing more than
speculation that some person might file a [public
records request] and (now on record for requesting the
information) commit identity theft or fraud.” Dkt. 50
at 29. Plaintiffs argue that the law will not achieve its
purpose of preventing identity theft because caregiver
contact information was already exempted from
disclosure, supporting an inference that the “only true
effect of [the Initiative’s Public Records Act] provisions
was to preclude anyone other than approved groups
from being able to learn the identity of [caregivers].”
Dkt. 50 at 13.
However, Plaintiffs anticipate being able to
“access the individual [caregivers] through mail
directed to them and door-to-door canvassing” once
they are provided a list of caregiver names. Dkt. 50 at
24. Plaintiffs suggest wrongdoers would not want to
identify themselves by placing a public records
request, but do not explain why legislative reasoning
that identity thieves could also find direct contact
information once they have a list of likely targets is
irrational or speculative. Plaintiffs affirm that the
primary work location for many caregivers is their
own homes. See Dkt. 64, Second Declaration of Matt
Hayward at 3, 4. If a caregiver’s identity leads easily
to address information to support direct mail or
canvassing efforts, it appears rational for the voters to
reason that protecting caregiver identities removes an
avenue that could be abused to identify homes with
vulnerable residents. Identity theft and financial
fraud against seniors is undoubtedly a real problem.
The Court finds that “it is evident from all the

App-124
considerations presented to [the legislature],” or here,
to the general voting public, that on the efficacy of
reducing publically available information about
caregivers to reduce possible avenues to target seniors
for identity theft and similar crimes, “the question is
at least debatable,” and survives rational basis
scrutiny. Clover Leaf Creamery Co., 449 U.S. at 464.
The parties devote substantial briefing to the
question of whether union animus against the
Freedom Foundation would render the Initiative’s
withholding of previously available information an
illegitimate action driven by impermissible animus.
Plaintiffs’ most compelling argument may be that the
true, or at least primary motivation of the Initiative’s
drafters and promoters was to restrict the
Foundation’s ability to communicate with caregivers
about their right to withhold financial support from
the unions. Plaintiffs have submitted both internal
communications of union officials as well as
communications from the unions to its members. 13
Based on this evidence and SEIU 775’s loss in the
state court, one could rationally infer that the
Dkt. 56-8 at 2, Email from SEIU 775 to Members (“There’s
one more way you can fight to stop the Freedom Foundation:
When you get your ballot in the mail, vote YES on [the Initiative],
which protects the private information of caregivers and our
state’s most vulnerable.”); id. at 4, Email from SEIU 775 to
Members (“By voting [yes on the Initiative] we protect caregivers
in our union from anti-union bullying of the Freedom
Foundation.”); id. at 10-11, Email from SEIU 775 Legislative and
Policy Director (“[The Initiative] initially began as legislation to
look into how outside groups were using/abusing the Public
Records Act to get private information of long term care workers
and their clients . . . .”).
13

App-125
predominate motivating factor for the Initiative and
the Campaign’s support for the Initiative was animus
toward the Freedom Foundation and outside entities
with prerogatives similar to the Foundation. That
inference leads to the conclusion that the proffered
motivation of protecting seniors was merely pretext
for the true motivation of animus. This rational
conclusion, however, is of no moment to the Court’s
consideration of the issues because Plaintiffs have
failed to submit any evidence that this allegedly
impermissible animus “prompted the statute’s
enactment.” Animal Legal Defense Fund, 878 F.3d at
1200. The voters of Washington enacted the Initiative,
not the Washington legislature. Thus, to prove their
claim, Plaintiffs would have to show that the
Washington voters harbored impermissible animus,
which Plaintiffs have failed to do, and in any case
almost certainly could not do.
Instead, the text of the Initiative and the
materials used to promote it to the general public can
only lead to the conclusion that the legislation
received voter approval because of the widely and
legitimately promoted purpose of protecting a
vulnerable population of the state’s citizens from
identity theft and financial fraud. Moreover, the
motivations of the Campaign cannot render void a
lawfully enacted initiative by the voters of
Washington State even if some evidence establishes
that the electorate may have been misled by the
Initiative’s chief proponent as to the proponent’s true
motivations. Therefore, the legitimate purpose for the
PRA exception survives even a searching form of
rational basis scrutiny, and the Court grants

App-126
summary judgment for Defendants on Plaintiffs’
Claim Two.
In sum, the Court concludes that Plaintiffs have
failed to meet their burden to dislodge the Initiative’s
presumption of constitutionality.
III. ORDER

Therefore, it is hereby ORDERED that the State
and the Campaign’s motions for summary judgment,
Dkts. 48 and 47, are GRANTED. Plaintiffs’ motion for
summary judgment, Dkt. 50, is DENIED.
The Clerk shall enter a JUDGMENT and close
the case.
Dated this 10th day of January, 2019.
[handwritten: signature]
BENJAMIN H. SETTLE
United States District Judge

App-127
Appendix C
RELEVANT CONSTITUTIONAL PROVISION
AND LEGISLATIVE MATERIAL
U.S. Const., amend I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
Seniors and Vulnerable Individuals’ Safety
and Financial Crimes Prevention Act,
2017 Wash. Legis. Serv., ch. 4, I.M. No. 1501
AN ACT Relating to the protection of seniors and
vulnerable individuals from financial crimes and
victimization; amending RCW 9.35.005, 9.35.001, and
9.35.020; adding a new section to chapter 42.56 RCW
and chapter 43.17 RCW; creating new sections; and
prescribing penalties.
BE IT ENACTED BY THE PEOPLE OF THE STATE
OF WASHINGTON:
NEW SECTION. Sec. 1. This act may be known
and cited as the seniors and vulnerable individuals’
safety and financial crimes prevention act.
NEW SECTION. Sec. 2. It is the intent of this
initiative to protect the safety and security of seniors
and vulnerable individuals by (1) increasing criminal
penalties for identity theft targeting seniors and
vulnerable individuals; (2) increasing penalties for
consumer fraud targeting seniors and vulnerable
individuals; and (3) prohibiting the release of certain

App-128
public records that could facilitate identity theft and
other financial crimes against seniors and vulnerable
individuals.
Sec. 3. RCW 9.35.005 and 2001 c 217 s 1 are each
amended to read as follows:
The definitions in this section apply throughout
this chapter unless the context clearly requires
otherwise.
(1) “Financial information” means any of the
following information identifiable to the individual
that concerns the amount and conditions of an
individual’s assets, liabilities, or credit:
(a) Account numbers and balances;
(b) Transactional information concerning an
account; and
(c) Codes, passwords, social security numbers,
tax identification numbers, driver’s license or
permit numbers, state identicard numbers issued
by the department of licensing, and other
information held for the purpose of account access
or transaction initiation.
(2) “Financial information repository” means a
person engaged in the business of providing services
to customers who have a credit, deposit, trust, stock,
or other financial account or relationship with the
person.
(3) “Means of identification” means information
or an item that is not describing finances or credit but
is personal to or identifiable with an individual or
other person, including: A current or former name of
the person, telephone number, an electronic address,
or identifier of the individual or a member of his or her

App-129
family, including the ancestor of the person;
information relating to a change in name, address,
telephone number, or electronic address or identifier
of the individual or his or her family; a social security,
driver’s license, or tax identification number of the
individual or a member of his or her family; and other
information that could be used to identify the person,
including unique biometric data.
(4) “Person” means a person as defined in RCW
9A.04.110.
five.

(5) “Senior” means a person over the age of sixty-

(6) “Victim” means a person whose means of
identification or financial information has been used
or transferred with the intent to commit, or to aid or
abet, any unlawful activity.
(7) “Vulnerable individual” means a person:
(i) Sixty years of age or older who has the
functional, mental, or physical inability to
care for himself or herself;
(ii) Found incapacitated under chapter 11.88
RCW;
(iii) Who has a developmental disability as
defined under RCW 71A.10.020;
(iv

Admitted to any facility;

(v) Receiving services from home health,
hospice, or home care agencies licensed or
required to be licensed under chapter 70.127
RCW;
(vi) Receiving services from an individual
provider as defined in RCW 74.39A.240; or

App-130
(vii) Who self-directs his or her own care and
receives services from a personal aide under
chapter 74.39 RCW. 3
PART I
Increasing Criminal Penalties for Identity
Theft Targeting Seniors or Vulnerable
Individuals
Sec. 4. RCW 9.35.001 and 2008 c 207 s 3 are each
amended to read as follows:
(1) The legislature finds that means of
identification and financial information are personal
and sensitive information such that if unlawfully
obtained, possessed, used, or transferred by others
may result in significant harm to a person’s privacy,
financial security, and other interests. The legislature
finds that unscrupulous persons find ever more clever
ways, including identity theft, to improperly obtain,
possess, use, and transfer another person’s means of
identification or financial information. The legislature
intends to penalize for each unlawful act of improperly
obtaining, possessing, using, or transferring means of
identification or financial information of an individual
person. The unit of prosecution for identity theft by
use of a means of identification or financial
information is each individual unlawful use of any one
person’s means of identification or financial
information. Unlawfully obtaining, possessing, or
transferring each means of identification or financial
information of any individual person, with the
requisite intent, is a separate unit of prosecution for
each victim and for each act of obtaining, possessing,
or transferring of the individual person’s means of
identification or financial information.

App-131
(2) The people find that additional measures are
needed to protect seniors and vulnerable individuals
from identity theft because such individuals often
have less ability to protect themselves and such
individuals can be targeted using information
available through public sources, including publicly
available information that identifies such individuals
or their in-home caregivers.
Sec. 5. RCW 9.35.020 and 2008 c 207 s 4 are each
amended to read as follows:
(1) No person may knowingly obtain, possess,
use, or transfer a means of identification or financial
information of another person, living or dead, with the
intent to commit, or to aid or abet, any crime.
(2) Violation of this section when the accused or
an accomplice violates subsection (1) of this section
and obtains credit, money, goods, services, or anything
else of value in excess of one thousand five hundred
dollars in value, or when the accused knowingly
targets a senior or vulnerable individual in carrying
out a violation of subsection (1) of this section, shall
constitute identity theft in the first degree. Identity
theft in the first degree is a class B felony punishable
according to chapter 9A.20 RCW.
(3) A person is guilty of identity theft in the
second degree when he or she violates subsection (1)
of this section under circumstances not amounting to
identity theft in the first degree. Identity theft in the
second degree is a class C felony punishable according
to chapter 9A.20 RCW.
(4) Each crime prosecuted under this section
shall be punished separately under chapter 9.94A

App-132
RCW, unless it is the same criminal conduct as any
other crime, under RCW 9.94A.589.
(5) Whenever any series of transactions
involving a single person’s means of identification or
financial information which constitute identity theft
would, when considered separately, constitute
identity theft in the second degree because of value,
and the series of transactions are a part of a common
scheme or plan, then the transactions may be
aggregated in one count and the sum of the value of all
of the transactions shall be the value considered in
determining the degree of identity theft involved.
(6) Every person who, in the commission of
identity theft, shall commit any other crime may be
punished therefor as well as for the identity theft, and
may be prosecuted for each crime separately.
(7) A person who violates this section is liable for
civil damages of one thousand dollars or actual
damages, whichever is greater, including costs to
repair the victim’s credit record, and reasonable
attorneys’ fees as determined by the court.
(8) In a proceeding under this section, the crime
will be considered to have been committed in any
locality where the person whose means of
identification
or
financial
information
was
appropriated resides, or in which any part of the
offense took place, regardless of whether the
defendant was ever actually in that locality.
(9) The provisions of this section do not apply to
any person who obtains another person’s driver’s
license or other form of identification for the sole
purpose of misrepresenting his or her age.

App-133
(10) In a proceeding under this section in which a
person’s means of identification or financial
information was used without that person’s
authorization, and when there has been a conviction,
the sentencing court may issue such orders as are
necessary to correct a public record that contains false
information resulting from a violation of this section.
PART II
Increasing Penalties for Consumer Fraud
Against Seniors and Vulnerable Individuals
NEW SECTION. Sec. 6. A new section is added to
read as follows:
(1) It is the intent of this section to increase civil
penalties for consumer fraud targeting a senior or a
vulnerable individual.
(2) Any consumer fraud that targets a senior or a
vulnerable individual, as defined in RCW 9.35.005, is
subject to civil penalties of three times the amount of
actual damages.
(3) This section creates no new cause of action.
This section increases penalties where a plaintiff
proceeds under any existing cause of action under
statute or common law and successfully proves that he
or she was victim to consumer fraud that targeted him
or her as a senior or vulnerable individual.
PART III
Prohibiting The Release of Certain Public
Records That Could Be Used To Victimize
Seniors And Vulnerable Individuals
NEW SECTION. Sec. 7. It is the intent of part
three of this act to protect seniors and vulnerable

App-134
individuals from identity theft and other financial
crimes by preventing the release of public records that
could be used to victimize them. Sensitive personal
information about in-home caregivers for vulnerable
populations is protected because its release could
facilitate identity crimes against seniors, vulnerable
individuals, and the other vulnerable populations that
these caregivers serve.
NEW SECTION. Sec. 8. A new section is added to
chapter 42.56 RCW to read as follows:
(1) Sensitive personal information of vulnerable
individuals and sensitive personal information of inhome caregivers for vulnerable populations is exempt
from inspection and copying under this chapter.
(2) The following definitions apply to this section:
(a) “In-home
caregivers
for
vulnerable
populations” means: (i) individual providers as
defined in RCW 74.39A.240, (ii) home care aides
as defined in RCW 18.88B.010, and (iii) family
child care providers as defined in RCW 41.56.030.
(b) “Sensitive personal information” means
names, addresses, GPS coordinates, telephone
numbers, email addresses, social security
numbers, driver’s license numbers, or other
personally identifying information.
(c) “Vulnerable individual” has the meaning set
forth in RCW 9.35.005.
NEW SECTION. Sec. 9. Within one hundred
eighty days after the effective date of this section, the
department of social and health services shall report
to the governor and attorney general about any
additional records that should be made exempt from

App-135
public disclosure to provide greater protection to
seniors and vulnerable individuals against fraud,
identity theft, and other forms of victimization.
NEW SECTION. Sec. 10. A new section is added
to chapter 43.17 RCW to read as follows:
(1) To protect vulnerable individuals and their
children from identity crimes and other forms of
victimization, neither the state nor any of its agencies
shall release sensitive personal information of
vulnerable individuals or sensitive personal
information of in-home caregivers for vulnerable
populations, as those terms are defined in section 8 of
this act.
NEW SECTION. Sec. 11. Nothing in this act shall
prevent the release of public information in the
following circumstances:
(a) the information is released to a governmental
body, including the state’s area agencies on aging,
and the recipient agrees to protect the
confidentiality of the information;
(b) the information concerns individuals who
have been accused of or disciplined for abuse,
neglect, exploitation, abandonment, or other acts
involving the victimization of individuals or other
professional misconduct;
(c) the information is being released as part of a
judicial or quasi-judicial proceeding and subject to
a court’s order protecting the confidentiality of the
information and allowing it to be used solely in
that proceeding;
(d) the information is being provided to a
representative certified or recognized under RCW

App-136
41.56.080, or as necessary for the provision of
fringe benefits to public employees, and the
recipient agrees to protect the confidentiality of
the information;
(e) the disclosure is required by federal law;
(f) the disclosure is required by a contract
between the state and a third party, and the
recipient agrees to protect the confidentiality of
the information;
(g) the information is released to a person or
entity under contract with the state to manage,
administer, or provide services to vulnerable
residents, or under contract with the state to
engage in research or analysis about state
services for vulnerable residents, and the
recipient agrees to protect the confidentiality of
the information; or
(h) information about specific public employee(s)
is released to a bona fide news organization that
requests such information to conduct an
investigation into, or report upon, the actions of
such specific public employee(s).
(2) Nothing in this act shall prevent an agency
from providing contact information for the purposes of
RCW 74.39A.056(3) and RCW 74.39A.250. Nothing in
this act shall prevent an agency from confirming the
licensing or certification status of a caregiver on an
individual basis to allow consumers to ensure the
licensing or certification status of an individual
caregiver.
NEW SECTION. Sec. 12. This act shall be
liberally construed to promote the public policy of

App-137
protecting seniors and vulnerable individuals from
identity theft, consumer fraud, and other forms of
victimization.
NEW SECTION. Sec. 13. If any provision of this
act or its application to any person or circumstance is
held invalid, the remainder of the act or the
application of the provision to other persons or
circumstances is not affected.

